                                                                      Office               Hotline

  Office of Inspector General                                         202.692.2900
                                                                      peacecorps.gov/OIG
                                                                      OIG Reports
                                                                                           202.692.2915 ‫ ׀‬800.233.5874
                                                                                           Online Contact Form
                                                                                           OIG@peacecorps.gov




To:            Carrie Hessler-Radelet, Acting Director
               Stacy Rhodes, Chief of Staff/Chief of Operations
               Daljit Bains, Chief Compliance Officer

From:          Kathy A. Buller, Inspector General

Date:          November 21, 2013

Subject:       Final Audit Report: Peace Corps Overseas Staffing (IG-14-01-A)

Transmitted for your information is our final report on the Audit of Peace Corps Overseas
Staffing.

Management concurred with all 13 recommendations. All recommendations remain open
pending confirmation from the chief compliance officer that the documentation identified in
management’s response has been received. In its response, management described actions it is
taking or intends to take to address the issues that prompted each of our recommendations. We
wish to note that in closing recommendations, we are not certifying that the agency has taken
these actions or that we have reviewed their effect. Certifying compliance and verifying
effectiveness are management’s responsibilities. Our comments, which are in the report as
Appendix C, address these matters. Please respond with documentation to close the remaining
open recommendation within 90 days of receipt of this memorandum.

You may address questions regarding follow-up or documentation to Assistant Inspector General
for Audit Bradley Grubb at 202.692.2914 or to Lead Auditor Rebecca Underhill at
202.692.2351.

Please accept our thanks for your cooperation and assistance in our review.

Attachment

cc:     Elisa Montoya, White House Liaison/Senior Advisor to the Director
        Carlos Torres, Acting Associate Director for Global Operations
        Bill Rubin, General Counsel
        Earl Yates, Associate Director, Office of Management
        Gary Stanberry, Deputy Associate Director, Office of Management
        Karen Bickle, Director, Human Resources Management
        Dick Day, Regional Director, AF
        Nina Favor, Acting Regional Director, IAP
        Kathy Rulon, Acting Regional Director, EMA
        Adrienne Jones, Deputy Director, Human Resources Management
        Patricia Barkle, Deputy Chief Compliance Officer
Peace Corps
Office of Inspector General




      Final Audit Report:
 Peace Corps Overseas Staffing
          IG-14-01-A
                            November 2013
                                     EXECUTIVE SUMMARY
BACKGROUND
On November 21, 2011, the President signed into law the Kate Puzey Peace Corps Volunteer
Protection Act of 2011 (Kate Puzey Act). 1 This Act requires the agency to provide
comprehensive sexual assault risk reduction and response training to Volunteers and implement a
comprehensive sexual assault policy. The Act also requires the agency to undertake a series of
reforms including enhanced: Volunteer feedback mechanisms, monitoring and evaluation,
performance appraisal, and other efforts to improve Volunteer safety and security and the Peace
Corps’ response to victims of sexual assault. The Kate Puzey Act requires the Peace Corps
Office of Inspector General (OIG) to assess agency compliance with these changes.

OIG must provide to Congress2 by November 21, 2013, reports on the status of the Kate Puzey
Act implementation:3

    1. An evaluation of the effectiveness and implementation of the sexual assault risk-
       reduction and response training.
    2. An evaluation of the effectiveness and implementation of the sexual assault policy,
       including a case review of a statistically significant number of cases.
    3. A report describing how Peace Corps representatives are hired, terminated, and how
       Peace Corps representatives hire staff, including an assessment of the implementation of
       performance plans.

OBJECTIVES
The objectives of this audit were to: (1) determine how country directors (CDs) are hired,
terminated, and how overseas staff are hired; and (2) assess how CDs are evaluated, including
how the performance plans mandated by the Kate Puzey Act have been implemented and how
Volunteer feedback provided in the Annual Volunteer Survey (AVS)4 was considered.

RESULTS IN BRIEF
Hiring of Overseas Staff. While the agency has been able to staff post management positions, it
struggled to maintain a robust pool of qualified applicants and ensure positions are filled in a
timely manner. These issues occurred because the agency did not:

        Develop an overarching timeline for the hiring process and maintain a master calendar to
         manage when post senior staff positions will become available.

1
  Kate Puzey Peace Corps Volunteer Protection Act of 2011, Pub. L. No. 112-57, 125 Stat. 736 (2011).
2
  OIG must provide reports to the Committees on Foreign Relations and Appropriations of the Senate and the
Committees on Foreign Affairs and Appropriations of the House of Representatives.
3
  Pursuant to the Kate Puzey Act, in November 2012, OIG provided Congress with a report on allegations or
complaints received from Volunteers relating to misconduct, mismanagement, or policy violations of Peace Corps
staff, any breaches of the confidentiality of Volunteers, and any actions taken to assure the safety of Volunteers who
provide such reports. OIG is required to submit such reports biennially through September 30, 2018.
4
  AVS is an annual anonymous survey of currently serving Volunteers to help the agency assess progress towards its
goals and identify areas for improvement.



Final Audit Report: Peace Corps Overseas Staffing                                                                    i
      Establish effective communications or coordination between the Office of Overseas
       Recruitment, Selection, and Support (ORSS) and the three regions to determine what
       specific qualifications are needed to fill the upcoming vacancies.
      Establish a feedback process on the quality of the pre-screening process.
      Utilize a set schedule for candidate roster development, issuance, and maintenance.
      Implement consistent procedures for the director of management and operations (DMO)
       and director of programming and training (DPT) interview hiring process.
      Adequately plan for transfers and unexpected vacancies.

Performance Plans and Appraisals. CDs and other post senior staff are provided performance
plans on an annual basis. However, the data provided by the agency concerning CD appraisals
after the passage of the Kate Puzey Act was insufficient to conclude that all CDs had adequate
appraisals conducted as required by law. We reviewed performance plans and appraisals for a
sample of CDs, DMOs, and DPTs. Of the performance plans and appraisals reviewed, OIG noted
that:

      Performance plans and appraisals did not clearly consider AVS data;
      Performance appraisals were inconsistent in format and scope; and
      Performance plans and appraisals were not conducted in timely manner.

In addition, the process for conducting performance appraisals was lacking adequate oversight
and specific direction for how to consider different levels of input. The current performance
appraisal system lacks the ability to differentiate between mediocre and exceptional employees
and does not provide specific guidance and training to rating officials.

CD Terminations. While termination is rarely pursued against CDs, there is no guidance on
how regional directors (RDs) should pursue this option or what offices should be involved in the
decision making process.

RECOMMENDATIONS
Our report contains 13 recommendations, which, if implemented, should strengthen the agency’s
compliance with the Kate Puzey Act and provide better controls and oversight for the hiring,
performance appraisal, and termination processes.




Final Audit Report: Peace Corps Overseas Staffing                                                ii
                                                  TABLE OF CONTENTS

EXECUTIVE SUMMARY ........................................................................................................... i

BACKGROUND AND AUDIT OBJECTIVES ..........................................................................1

AUDIT RESULTS .........................................................................................................................7
          HIRING OF OVERSEAS STAFF............................................................................................................................ 7

          PERFORMANCE PLANS AND APPRAISALS ....................................................................................................... 13

          COUNTRY DIRECTOR TERMINATIONS ............................................................................................................ 21


OBJECTIVE, SCOPE, AND METHODOLOGY ....................................................................23

INTERVIEWS CONDUCTED ...................................................................................................25

LIST OF RECOMMENDATIONS ............................................................................................26

APPENDIX A: LIST OF ACRONYMS ....................................................................................28

APPENDIX B: AGENCY’S RESPONSE TO THE PRELIMINARY REPORT ..................29

APPENDIX C: OIG COMMENTS ............................................................................................38

APPENDIX D: AUDIT COMPLETION AND OIG CONTACT ...........................................39
                    BACKGROUND AND AUDIT OBJECTIVES
The Kate Puzey Act
On November 21, 2011, the President signed into law the Kate Puzey Act. The Act was named in
honor of Kate Puzey, a Peace Corps Volunteer who died while serving in Benin in 2009. This
Act established requirements for the agency to provide comprehensive sexual assault risk-
reduction and response training to Volunteers, develop a sexual assault policy, and undertake
other related efforts to enhance Volunteer safety and security and the Peace Corps’ response to
victims of sexual assault. The Kate Puzey Act requires the agency to establish performance plans
with performance elements for Peace Corps representatives that incorporate consideration of
Volunteer feedback.

OIG Reporting Requirements in the Kate Puzey Act
To fulfill oversight requirements, OIG must report to Congress by November 21, 2013, on the
status of the Kate Puzey Act implementation.5 OIG is providing the following in three reports:

    1. An evaluation of the effectiveness and implementation of the sexual assault risk-
       reduction and response training.
    2. An evaluation of the sexual assault policy, including a case review of a statistically
       significant number of cases.
    3. A report describing how Peace Corps representatives are hired, how Peace Corps
       representatives are terminated, and how Peace Corps representatives hire staff, including
       an assessment of the implementation of performance plans.

This report fulfills the requirement to describe how Peace Corps representatives are hired, how
Peace Corps representatives are terminated, and how Peace Corps representatives hire staff,
including an assessment of the implementation of performance plans. For the purpose of our
report we considered Peace Corps representatives to be the country directors, who are
responsible for management and direction at overseas posts. In conducting this audit we looked
at the three key members of post senior staff, who are generally U.S. direct hire employees: the
CD, DMO and DPT. The report does not describe how other host country or third country staff
are hired.

The Peace Corps’ Operating Environment
The Peace Corps' mission—to promote world peace and friendship—has three goals:

       Helping the people of interested countries in meeting their need for trained men and
        women.
       Helping promote a better understanding of Americans on the part of the peoples served.
       Helping promote a better understanding of other peoples on the part of Americans.




5
 OIG must provide reports to the Committees on Foreign Relations and Appropriations of the Senate and the
Committees on Foreign Affairs and Appropriations of the House of Representatives.


Final Audit Report: Peace Corps Overseas Staffing                                                           1
The Peace Corps accomplishes its mission by sending Volunteers to share their skills and
experience with local communities in developing countries that have requested technical
assistance. Volunteers work at the grassroots level and ensure the sustainability of their efforts
by transferring their skills to their host country partners.

Staff are located in headquarters offices and overseas posts to support Volunteers and enhance
their work to achieve the Peace Corps mission and three core goals. Headquarters offices, based
in Washington, DC, coordinate the general operations of the agency, providing overarching
strategic guidance and targeted support to overseas posts and the Volunteers. The Office of
Global Operations (OGO) provides oversight and coordinates the strategic support and
management of Peace Corps overseas operations. Overseas posts are staffed by both American,
host country national, and third country national staff who oversee Volunteer activities and
address the unique needs of Volunteers serving in local communities, often under hardship
conditions.

As of September 30, 2013, the Peace Corps had active programs in 65 countries that were
administered through 61 overseas posts (Figure 1 provides a graphic representation of where
Peace Corps Volunteers currently serve).6 Posts are organized into three regions: Africa; Europe,
Mediterranean, and Asia; and Inter-America and Pacific.

                                      Figure 1. Peace Corps Countries




6
 In certain circumstances, individual posts manage programs in multiple countries in their vicinity to achieve cost
savings in staffing and infrastructure while still providing a high level of Volunteer support.


Final Audit Report: Peace Corps Overseas Staffing                                                                     2
Post Senior Staff
A typical post has three directors who are responsible for Peace Corps operations (collectively
referred to as “post senior staff” throughout this report).

       The CD, always a U.S. citizen, has the authority and responsibility to manage and
        coordinate Peace Corps activities in-country. The CD is also responsible for ensuring that
        day-to-day operations create an environment for Volunteers and staff to work
        successfully and perform their duties and responsibilities.7 The CD supervises and is
        supported by safety and security, medical, programming, financial, training, and
        administrative staff.

       The DMO8 is responsible for post financial and administrative operations including
        budgeting, human resource management, procurement, and general services support.
        While reporting to the CD, the DMO supervises an administrative unit composed of host
        country national staff that typically includes a cashier, administrative assistant, general
        services assistant, drivers, and guards.

       The DPT9 is responsible for managing the training of Volunteers and the implementation
        of Volunteer projects to ensure consistency with the needs of the host country and Peace
        Corps policies and priorities. While reporting to the CD, the DPT supervises Peace Corps
        programming staff and Volunteers in the development, management, and evaluation of
        projects and training.

The Peace Corps’ Hiring Process
The hiring process for overseas U.S. direct hires begins with ORSS working with the regions to
develop general position descriptions for post senior staff positions. From the position
descriptions, ORSS creates general job announcements and posts them on the Peace Corps
website. As applicants apply to the positions, the resumes and application questions are collected
by ORSS for review. ORSS has a team of “pre-screeners,” former post senior staff that review
these applications to determine if the applicants are qualified. Each applicant initially goes
through a two-step process to determine if they meet the minimum qualifications for the position.
First, a pre-screener conducts a review of the submitted application. For the DMO and DPT
positions, the pre-screener uses a set of criteria to review the application to determine if the
applicant should continue through the process. However, for the CD position there is no set of
criteria. The pre-screener uses their judgment to determine if the applicant should continue to the
next stage. Second, if the applicant passes the application review, an ORSS pre-screener will
then conduct a telephone interview with the applicant to learn more about the applicant’s
background and qualifications. The ORSS pre-screener uses a scoring sheet to evaluate the
applicant’s responses in different categories, such as supervisory experience and technical
qualification areas. The applicants’ scores are then entered into a matrix and the highest qualified
candidates continue on through the hiring process. At this point in the process the CD selection
varies significantly from the DMO and DPT.

7
  Either the DMO or DPT may be designated acting CD in the absence of the CD, as long as they are a U.S. citizen.
8
  Most DMOs are U.S. citizens; however, as of September 2013, 10 posts had a host country national serving in this
role.
9
  As of September 2013, only one DPT was a non-U.S. citizen.


Final Audit Report: Peace Corps Overseas Staffing                                                                3
CD Selection Process
After ORSS has screened and identified qualified CD applicants, the Peace Corps requests that
candidates travel to headquarters for a full day of interviews with various staff members. The
series of interviews includes:

        Each regional office, three interviews in total;
        A manager who is not a returned Peace Corps Volunteer; and
        A panel of three staff members who are returned Peace Corps Volunteers.

Each interviewer, using a summary review sheet, grades the candidate’s abilities according to a
series of ORSS developed qualifications and makes a recommendation if the candidate should be
selected. While the candidate is at headquarters, they also attend an initial security screening
with the Office of Safety and Security (SS). After the day of interviews, ORSS reviews the
interviewer comments and scoring. If a candidate is not recommended by two of the five
interviews,10 then the candidate does not move on in the process. If a candidate passes these
interviews, then ORSS contacts the candidate and requests that they return to headquarters for an
additional interview with the Director. This interview also includes various high-level managers
such as the chief of staff, associate director for OGO, and the white house liaison. With approval
from the Director, the candidate is placed on a roster of approved CD candidates.

The Peace Corps selects candidates from this roster to fill upcoming vacancies approximately
three times a year.11 To make these selections, the three RDs review the roster and determine
which candidates they believe would best be suited for the upcoming vacancies, considering
factors such as language proficiency and post-specific needs. The RDs informally meet with the
associate director for OGO to discuss their choices and make the final decisions on filling the
upcoming CD vacancies. Afterwards, the RDs present their selections to the Director at a
“matching meeting,” and with the Director’s input the final decision for CDs is determined. The
RDs prepare selection memos used by the Office of Human Resource Management (HRM), who
then notify the candidates and extend an initial offer. SS and the Office of Health Services
(OHS) begin their clearance processes once the offer has been accepted by the candidate. After
the candidate receives both a medical and security clearance12 they begin their employment and
report for overseas staff training (OST). See Figure 2 for an illustration of the CD hiring process.




10
   The returned Peace Corps Volunteer staff panel interview is considered one interview for the purposes of
determining if the candidate has received the necessary four of five recommendations to continue in the hiring
process. Two of the three panel interviewers must recommend a candidate to receive the panel’s recommendation.
11
   The timing of CD selections is tied to overseas staff training, which CDs are required to attend prior to relocating
to their first post assignment. This training offers insights and guidance to the CD role at post and is hosted at Peace
Corps headquarters three times a year.
12
   As a condition of employment the selected post senior staff must receive a top secret security clearance and a
medical clearance. The medical clearance is also required for any family members that will be stationed at the post
with them. The medical clearance is granted by the Department of State, Office of Medical Services.


Final Audit Report: Peace Corps Overseas Staffing                                                                      4
                             Figure 2. Illustration of the CD Hiring Process




DMO and DPT Selection Process
After DMO and DPT applicants have been screened and the qualified candidates have been
determined, ORSS develops one roster for DMOs and another for DPTs. Each roster consists of
the candidates’ names, scores, and notes from the ORSS pre-screener interviews. Each region is
responsible for further screening of candidates. Regions typically screen candidates through
phone or in-person interviews (based on the candidate’s location) with a variety of regional and
headquarters-based staff. The regions typically select one to three candidates per vacancy to send
to the CD at post for consideration. The CD conducts phone interviews with the candidates to
make the final selection. The CD will then notify the region which candidate they select for the
vacancy. HRM notifies the candidate of their selection and conditionally offers the position.
Once the candidate accepts the offer, SS and OHS begin the security and medical clearance
processes, respectively. After the candidate receives both a security and medical clearance they
will attend OST13 or report directly to post, depending on when the clearances had been granted.
See Figure 3 for an illustration of the DMO/DPT hiring process.




13
   OST has separate training tracks for both the DMO and DPT positions. DMOs and DPTs are not required to
attend this training before relocating to post. However, if the DMO or DPT does not initially receive such training,
the DMO or DPT must attend the following OST.


Final Audit Report: Peace Corps Overseas Staffing                                                                      5
                    Figure 3. Illustration of The DMO/DPT Hiring Process




Audit Objectives
The objectives of this audit were to: (1) determine how CDs are hired, terminated, and how
overseas staff are hired; and (2) assess how CDs are evaluated, including how the performance
plans mandated by the Kate Puzey Act have been implemented and how Volunteer feedback
provided in AVS was considered.




Final Audit Report: Peace Corps Overseas Staffing                                               6
                                     AUDIT RESULTS
HIRING OF OVERSEAS STAFF

The Peace Corps created ORSS in 2009 to provide a centralized and streamlined process for
hiring post senior staff positions. Although the agency was able to staff post management
positions, it struggled to maintain a robust pool of qualified applicants and ensure positions were
filled in a timely manner. These issues occurred because the agency did not:

      Develop an overarching timeline for the hiring process and maintain a master calendar to
       manage when post senior staff positions will become available.
      Establish effective communications or coordination between ORSS and the three regions
       to determine what specific qualifications are needed to fill the upcoming vacancies.
      Establish a feedback process on the quality of the pre-screening process.
      Utilize a set schedule for candidate roster development, issuance, and maintenance.
      Implement consistent procedures for the DMO and DPT interview hiring process.
      Adequately plan for transfers and unexpected vacancies.

We previously reported that the Peace Corps experiences a high turnover rate in positions as a
result of five-year term limits for staff (see IG-12-05-E Impacts of the Five-Year Rule on
Operations of the Peace Corps (June 2012)). The effects of the five-year term limit, in
combination with unnecessary delays and inefficiencies in hiring, resulted in a lack of consistent
leadership at posts and required staff to perform the duties of multiple positions to cover
vacancies.

The Peace Corps Manual section (MS) 601, “Administration of the Peace Corps Personnel
System,” outlines the overall policies and authorities of the Peace Corps personnel system.
Specifically it states that the Director makes final selection decisions for all CD positions and
that the selection process shall be “prescribed from time to time by the Director.” MS 601 further
states that the RDs are responsible for the selection of DMO and DPT positions. MS 620, “Peace
Corps Merit Selection and Promotion,” outlines the policies for Peace Corps hiring practices,
such as posting vacancy announcements.

An overarching timeline that outlines the post senior staff hiring process and the length of
time needed, on average, to fill vacancies did not exist.

The hiring process involves a variety of offices and contains many steps including numerous
interviews, receiving a security clearance, and receiving a medical clearance. Peace Corps staff
anecdotally stated varying lengths that the hiring process can take, ranging from three to 12
months. No single Peace Corps office has all of the needed data to track the length of the hiring
process or candidates as they pass milestones in the process. ORSS has access to information
about the first part of the hiring process, mainly when an applicant applied, was initially
screened, and placed on a roster. The regions have access to information about the second part of
the hiring process, mainly the candidate’s progress through the regions’ selection process and
when that candidate will be sent to the post. No office has information about both parts of the


Final Audit Report: Peace Corps Overseas Staffing                                                 7
hiring process. As a result, there is no way of determining an accurate timeline for the hiring
process.

In addition, neither ORSS nor OGO have consolidated information about which overseas
positions will become available in the future in order to determine the agency’s overall need for
candidates. Each region separately maintains their own staffing plan, which contains all the
overseas positions within their region and the estimated date that these positions will become
vacant. A staffing analyst within each region provides monthly updates to their region’s senior
staff on all positions that will become vacant within the next year and what steps have been taken
to obtain a replacement. However, ORSS did not have access to the staffing plans and was
unaware of the number of overseas positions that were going to become vacant. While ORSS
tried to maintain an adequate number of qualified candidates on the rosters, they did not have
complete information on the upcoming need for candidates.

Without a centralized master calendar, a specific hiring timeline, or a process to fill unexpected
vacancies, many posts have experienced long delays in hiring for senior staff positions. The lack
of centralized information inhibits the timely communication of staffing needs. Over the past 18
months, there have been approximately 60 vacancies in the CD, DMO, and DPT positions. The
duration of the vacancies ranged from one to thirteen months.

There was limited communications or coordination between ORSS and the regions to
determine what specific qualifications were needed for the vacancies.

For the DMO and DPT positions, ORSS pre-screeners used a standardized question list and
rating sheet that was developed with regional input. However, for the CD positions, there was no
standard rating system and the pre-screeners relied on their own judgment to determine what
applicants would be successful. As a result, managers expressed concern that the screening was
too subjective and based on the outdated experiences of the ORSS pre-screeners. One senior staff
member stated that it would be useful to meet with the ORSS pre-screener and help develop a
question list together so ORSS knows what the region and the post is looking for in candidates.
Other senior staff members expressed concern that
ORSS was not selecting some of the more exceptional
candidates as qualified candidates and that some of the     Senior staff expressed concern that
best post senior staff they have did not make the initial     ORSS’ screening process was too
roster. For example, a highly qualified applicant did not
pass the initial ORSS screening because the applicant        subjective and based on outdated
copied information directly from their resume and                       experiences.
pasted it into the application form.

ORSS also lacked a formal feedback process to receive information from regions on the quality
of the pre-screening process. Pre-screeners stated that it would be helpful to receive input from
the regions about what they were looking for in candidates and if the initial screening should be
changed. One pre-screener stated that a feedback loop would be helpful because this would let
ORSS know how well the candidates performed in the field. A second pre-screener told us that
they ask themself the question, “would I want to hire this person?” when deciding whether to




Final Audit Report: Peace Corps Overseas Staffing                                                   8
recommend a candidate; however, the pre-screener noted the appropriate inquiries are whether
the region would want to hire the candidate and what does the region value in candidates.

Candidate rosters were not updated on a defined or set schedule.

ORSS generated rosters periodically throughout the year, but ORSS did not effectively
communicate with the regions when the rosters would be released. Staffing analysts from all
three regions stated that they were unaware of when rosters would be published. ORSS stated
that they upload the new roster to a shared electronic folder, but do not consistently communicate
with the regions that this action has been done. Some regional staff stated that they received
emails directly from the pre-screeners communicating the roster release.

Regional staff believed the rosters were updated too infrequently. Sometimes the list of qualified
candidates is limited to a small number of individuals, forcing regions to wait for an updated
roster or to select from a limited number of candidates that might not have the specific
qualification desired for a post. Recently, ORSS developed a schedule for roster releases with the
regions and OGO; however, regional staff believe the scheduled releases are too infrequent. One
regional staff member stated that they do not know why the roster is not updated on a continuous
basis. ORSS stated that they are willing to update the rosters on any basis the regions need, but
these needs have not been communicated to ORSS.

Additionally, a candidate can stay on a roster for months or years, depending on the volume and
need for new post senior staff. ORSS did not routinely reach out to candidates to verify that the
candidate was still interested in the position. Several regional staff stated that they reached out to
candidates on the rosters only to find the candidate was no longer interested in working for the
Peace Corps. Further, the agency did not have a process to remove candidates from the DMO
and DPT rosters, who had not been selected for a significant period of time. Occasionally, at the
end of matching meetings, unselected CD candidates were removed from the roster based on a
lack of interest from the meeting participants.

The regions did not have a consistent process for selecting DMOs and DPTs.

After ORSS generated a roster, the regions were responsible for making selections from the
roster. Each region had its own process for interviewing and selecting candidates. For the DMO
position, one region conducted a panel interview comprised of three headquarters staff that the
DMO would typically interact with on a regular basis. Another region also used panel interviews,
but the panel only included staff from the region, excluding other headquarters offices such as
the Office of the Chief Financial Officer.

Regions risked selecting candidates already selected by another region because there was no
requirement to coordinate candidate selection decisions between regions. At their own initiative,
some senior staff in the region would attempt to coordinate the interview process between
regions to consolidate the number of interviews and reduce redundancy. However, this process
was not always followed.




Final Audit Report: Peace Corps Overseas Staffing                                                    9
Regions were not always providing CDs with an adequate selection of DPT and DMO
candidates. Regions would often send three candidates to the CD for review and selection.
However, this was not always the case. During interviews, CDs expressed concern that they were
not given a sufficient number of candidates to choose from and, in some situations, only received
one candidate. A lack of hiring options has created some frustration about the process by post
                                           senior staff. One CD, who received only one
                                           candidate, requested to interview additional candidates
  CDs expressed concern that they were but was told by the region that the person whom they
     not given a sufficient number of      referred was the only individual qualified and
                                           available for the position. After much debate, the CD
 candidates to choose from and in some
                                           was finally able to review the resumes of two other
 situations only received one candidate. candidates and determined that these candidates had
                                           more specific skills related to the programs and
                                           functions of the post. However, the region was unable
to provide the CD with the rating sheets demonstrating why these candidates were scored lower
than the one candidate referred by the region. Ultimately, the CD was unable to select a different
candidate because the agency already offered the position to the initial candidate.

The Peace Corps did not have a consistent or transparent process for transferring post senior
staff to new posts.

To transfer within a region, a post senior staff member can request a transfer from the RDs
through informal channels, such as a phone call. For vacancies within a region, regional staff
may also reach out to a specific post senior manager to determine if that employee is interested
in transferring positions to another post. Such a process exposes the agency to charges that the
process is unfair or promotes favoritism.

The process to transfer between regions was also inconsistent. In some cases, post senior staff
members reached out to their RDs, who helped facilitate the transfer between regions. In another
instance, a post senior staff member had to reapply through the initial application process,
despite being currently employed in that position. OGO has recently identified the need to
improve the internal transfer process and has been working with HRM to develop a more
formalized and transparent process to manage internal transfers. HRM plans to implement this
formal internal transfer program by January 2014.

The Peace Corps did not have a consistent process for filling post vacancies caused by
unexpected employee departures.

Not all vacancies can be planned and the Peace Corps has faced hurdles in trying to find
replacements and fill-ins when vacancies unexpectedly open. Because the hiring process takes
several months before a new candidate is selected, regions use other alternatives to ensure the
posts have additional management coverage. For example, headquarters staff may travel to the
affected post to provide temporary coverage, leaving a position empty at headquarters.
Additionally, the regions have a few “rover” positions, which are mobile staff that will relocate
to fill post vacancies. Two of the regions each have two DMO rovers. The other region uses two
experts to fill in for their CD vacancies. This region has also posted two vacancies to hire a



Final Audit Report: Peace Corps Overseas Staffing                                                  10
DMO and a DPT rover. However, the rovers provided insufficient coverage for all vacancies,
because there were times when too many vacancies existed across a region to be covered by
rovers. Covering the post vacancies left resources spread thin. OGO has proposed a plan to
create a more formalized rover program that would provide four rovers for each region to
provide coverage for all three post senior staff positions.

The overseas hiring program was not comprehensive and formalized because the agency did
not have a specific policy or centralized communications related to the hiring of post senior
staff.

MSs 601 and 620 provide general rules for hiring but Peace Corps policy does not include:

      the roles and responsibilities of the involved offices at each level of the process;
      how rosters should be developed, issued, and maintained; and
      the process to conduct transfers of current post senior managers.

A lack of communication and coordination between ORSS and the regions created confusion and
inefficiencies. There is no one entity involved with every step of the hiring process to ensure
consistency and timeliness. With better communications, many of these outlined issues in the
hiring process could have been prevented. For example, the regions are frustrated with the
frequency that rosters are published; however, ORSS is willing produce rosters on any interval
that the region needs.

Without a comprehensive pre-screening process and updated candidate rosters, the Peace Corps
may not be getting the best candidates it needs to fill post senior staff positions and the selections
might not be the best suited for the specific posts. Lack of insight into what qualifications are
needed for specific vacancies could lead to qualified applicants being inappropriately screened
out. Without updated and refreshed rosters, regions expend time and energy reviewing
unavailable or undesirable candidates.

These inefficiencies delay the hiring of essential post senior staff positions. When one or more
post senior staff positions are vacant, post direction and decision making can be compromised. A
six-month vacancy for the CD position had a large impact on one post. A post senior staff
member told us that work burdens on other staff during the vacancy increased, important
decisions were delayed, and the difficulty of the situation demoralized post staff. This vacancy
created a leadership vacuum. Another post senior staff member who had a DPT vacancy for
almost a year stated that some tasks were not completed and that staff development and budget
were sacrificed. OIG has seen the impacts of these post senior staff vacancies in our post
evaluations. For instance, in IG-11-04-E, Final Program Evaluation Report: Peace
Corps/Cambodia (May 2011) evaluators found that the DPT position had been vacant for eight
months and reported that:

       During the eight month period without a permanent DPT lapses began to appear in important programming
       areas, including Volunteer communications and oversight, host family selection, Volunteer reporting
       feedback, and Volunteer file documentation.




Final Audit Report: Peace Corps Overseas Staffing                                                        11
Further, in IG-12-06-E Final Program Evaluation Report: Peace Corps/Uganda (July 2012) we
found that “the excessive turn-over rate for CDs in Uganda has severely impacted the post’s
ability to develop into a high performing post.” The lack of consistent leadership and continuity
of vision led to the post’s projects not being solidly developed.

In addition, without clearly defined roles and responsibilities, candidates may feel lost in the
hiring process. Candidates do not know who to contact to get information about the hiring
process or the status of their application. Some post senior staff have referred to the process as “a
black hole.” One DPT stated that “they treat you like a Volunteer, that you should feel honored
they are considering you.” Peace Corps can lose highly qualified candidates because these
candidates do not know where they stand in the process and accept other job opportunities.

               We recommend:

                   1. That the Office of Management develop and implement a
                      formal policy and procedure for conducting post senior
                      staff hiring. This policy should define roles and
                      responsibilities, timelines, and accountability.

                   2. That the Office of Overseas Recruitment, Selection, and
                      Support develop a hiring timeline using statistics on the
                      length of time to process an applicant through each stage of
                      the hiring process.

                   3. That the Office of Global Operations develop a master
                      calendar of all known upcoming vacancies for the post
                      senior staff positions.

                   4. That the Office of Global Operations and Office of
                      Overseas Recruitment, Selection, and Support develop a
                      process that ensures that information on what qualifications
                      are needed to fill upcoming vacancies is communicated and
                      provide feedback on the pre-screening process.

                   5. That the Office of Overseas Recruitment, Selection, and
                      Support develop a set schedule for candidate roster
                      development, issuance, and maintenance.

                   6. That the Office of Global Operations and Office of
                      Overseas Recruitment, Selection, and Support implement a
                      formalized process for the internal transfers of current post
                      senior staff.

                   7. That the Office of Global Operations pursue a formalized
                      approach to rover positions to ensure adequate coverage of
                      unexpected post senior staff vacancies.


Final Audit Report: Peace Corps Overseas Staffing                                                 12
PERFORMANCE PLANS AND APPRAISALS

CD and other post senior staff are provided performance plans on an annual basis. However, the
data provided by the agency concerning CD appraisals after the passage of the Kate Puzey Act
was insufficient to conclude that all CDs had adequate appraisals conducted as required by law.
We reviewed performance plans and appraisals for a sample of CDs, DMOs, and DPTs. Of the
performance plans and appraisals reviewed, OIG noted that:

      Performance plans and appraisals did not clearly consider AVS data, as required by the
       Kate Puzey Act;
      Performance appraisals were inconsistent in format and scope; and
      Performance plans and appraisals were not conducted timely.

In addition, the process for conducting performance appraisals was lacking adequate oversight
and specific direction for how to consider different levels of input. The current performance
appraisal system lacks the ability to differentiate between mediocre and exceptional employees
and does not provide specific guidance and training to rating officials.

CD Performance Appraisals
The Kate Puzey Act requires performance elements and standards to be developed for all CDs,
and their performance to be evaluated on, at least, an annual basis. As part of this audit, the
legislation mandates that the results from AVS be considered.

Prior to the issuance of the Kate Puzey Act, CDs were not required to undergo performance
appraisals. Nonetheless, the agency’s general practice was to conduct performance appraisals
following the same guidance established for other Peace Corps employees.

DMO and DPT Performance Appraisals
MS 626, “Performance Appraisal System,” provides guidance to ensure that employees receive
periodic appraisals of job performance. MS 626 requires the employee’s direct supervisor, or
rating official, provide the employee with a written performance plan within 30 days of the
appraisal period beginning or the employee’s entry into the position. This performance plan
consists of performance elements and the standard an employee is expected to meet in order to
perform the job successfully. MS 626 states the performance plan should be developed using the
following criteria: (a) relevance, (b) completeness, (c) clarity, and (d) measurability.

Furthermore, MS 626 requires the rating official annually provide a written performance
appraisal in which the employee receives either “meets or exceeds” (pass) or “does not meet”
(fail) and a narrative statement is provided for each performance element. MS 626 also requires
all appraisals to be completed and submitted to the director of human resource management no
later than 30 days after the end of the appraisal period.




Final Audit Report: Peace Corps Overseas Staffing                                                 13
CD and other post senior staff were provided performance plans on an annual basis.

2013-14 Performance Plans. On July 22, 2013, we requested the 2013-14 performance plans for
all 61 CDs, 15 DMOs, and 15 DPTs. On July 29, 2013 HRM provided the prior period (2012-13)
performance plans for 57 CDs, 5 DMOs, and 5 DPTs. Table 1 provides a breakdown of the
number of performance plans requested and received.

               Table 1. 2012-13 Performance Plans Provided on July 29, 2013
                                Requested Received Percent Received
                   CD               61        57            93%
                   DMO              15         5            33%
                   DPT              15         5            33%
                   Total            91        67           74%

In order for us to review the plans and still meet Congress’ November 2013 deadline, on August
30, 2013, we modified our request for the 2013-14 appraisals to 15 CDs, 15 DMOs, and 15
DPTs. On September 10, 2013, HRM was able to provide approximately 27 percent of the
requested employees. Table 2 provides a breakdown of the number of performance plans
requested and received.

            Table 2. 2013-14 Performance Plans Provided on September 10, 2013
                                Requested Received Percent Received
                    CD             15           4           27%
                    DMO            15           4           27%
                    DPT            15           4           27%
                    Total          45          12           27%

We continued to correspond with HRM in attempt to receive all 45 2013-14 performance plans
requested. HRM continued to provide performance plans until September 24, 2013; however, as
of that date, three performance plans were not received.

The data provided by the agency concerning CD appraisals after the passage of the Kate Puzey
Act was insufficient to conclude that all CDs had adequate appraisals conducted as required
by law.

2011-12 Performance Appraisals. On June 6, 2013, we requested the previous review period’s
performance appraisals for all 61 CDs and a judgmental sample of 15 DMOs and 15 DPTs. On
June 14, 2013, HRM provided the 2011-12 performance appraisals for approximately 63 percent
of the requested employees’ performance appraisals. Table 3 provides a breakdown of the
number of performance appraisals requested and received.




Final Audit Report: Peace Corps Overseas Staffing                                           14
              Table 3. 2011-12 Performance Appraisals Provided on June 14, 2013
                                  Requested Received Percent Received
                      CD             61        46            75%
                      DMO            15         6            40%
                      DPT            15         5            33%
                      Total          91        57            63%

2012-13 Performance Appraisals.14 In order to provide an accurate and timely analysis of
performance plans and performance appraisals, we determined that the 2012-13 performance
appraisals would need to be reviewed, as the 2011-12 performance appraisals provided were over
14 months old. However, the 2012-13 performance appraisals were not due to HRM until July
15, 2013. On July 22, 2013, OIG requested the 2012-13 performance appraisals for all 61 CDs
and the same judgmental sample of 15 DMOs and 15 DPTs. On July 29, 2013, HRM provided
mid-year reviews (conducted in January 2013) for a selection of the requested employees, but
was unable to provide any of the full 2012-13 performance appraisals.

In order for us to review the appraisals and still meet Congress’ November 2013 deadline, on
August 30, 2013, we modified our request for the 2012-13 appraisals to 15 CDs, 15 DMOs, and
15 DPTs. On September 10, 2013, HRM was able to provide approximately 53 percent of the
requested employees’ performance appraisals. Table 4 provides a breakdown of the number of
performance appraisals requested and received.

         Table 4. 2012-13 Performance Appraisals Provided as of September 10, 2013
                      Requested Received Not Required*        Percent Received
           CD            15          4            1                 29%
           DMO           15          8            4                 73%
           DPT           15          8            2                 62%
           Total         45         20            7                 53%
          *Some employees were not in their role as post senior staff for 120 days and therefore did not
          receive a performance review.

We continued to correspond with HRM in attempt to receive all 45 2012-13 performance
reviews requested. HRM continued to provide performance appraisals until September 24, 2013;
however, as of that date two performance appraisals were not received.

The following sections are based on analysis for the 13 CD, 10 DMO and 11 DPT appraisals that
we received for the 2012-13 performance period.




14
  Prior to 2013, the annual performance period was February 1 to January 31; however, in January 2013 HRM
revised the period to end May 31. In future years, performance will be evaluated from June 1 to May 31. The
performance reviews conducted in 2013 should be the only review period that contains more than 12 months of
performance.



Final Audit Report: Peace Corps Overseas Staffing                                                             15
CD performance appraisals did not clearly and consistently consider AVS data or include such
data in the written appraisals.

All CD performance plans uniformly contain eight elements:

   1)   Representation
   2)   Administrative and Financial Management
   3)   Human Resource Management
   4)   Program Direction
   5)   Volunteer Support and Training
   6)   Safety and Security of Volunteers, Trainees, and Staff
   7)   Organizational Management and Leadership
   8)   Equal Employment Opportunity/Affirmative Action

The performance standards for elements 5) “Volunteer Support and Training” and 6) “Safety and
Security of Volunteers, Trainees, and Staff” both state: “Responses from the Annual Volunteer
Survey shall be considered in evaluating this element.” However, there was no clarification as to
which AVS questions should be used to evaluate these standards.

The 2012 AVS contained 100 questions divided into 11 different sections. These sections cover a
wide array of topics. These sections are:

   1)   Training for Your Peace Corps Assignment
   2)   Your Health
   3)   Your Peace Corps Activities
   4)   Peace Corps Goals and Impact
   5)   Overall Assessment of Your Peace Corps Service
   6)   Peace Corps Support
   7)   Your Life in the Peace Corps
   8)   Your Safety and Security
   9)   Activities after Peace Corps Service (only for Volunteers serving 19 months or more)

Of the 13 CD performance appraisals from the rating period that covered February 1, 2012
through May 31, 2013, sixty-nine percent (9 of 13) of the appraisals contained no details or
narrative on the AVS results. The four appraisals that referenced AVS results were all for CDs
from the same region. However, the level of information on the AVS data varied. For example,
one appraisal had detailed bullet points on the different AVS results and what was being done to
improve those results. Other appraisals only mentioned that AVS results were expected to
improve. Of the four performance appraisals that referenced AVS data, three announced an
expectation to see improvements in next years’ results, but did not allude to plans to address
problem areas in the upcoming year. Without specific details on AVS as part of the written
appraisals there is limited assurance that the AVS results are considered, as required by the Kate
Puzey Act.

We reviewed the 2011 and 2012 AVS results for the four appraisals that contained language on
AVS results and determined that AVS results were not always as positive as reflected in the



Final Audit Report: Peace Corps Overseas Staffing                                               16
performance appraisals. For example, while
one performance appraisal stated,                In one country, Volunteers’ satisfaction with
“Volunteers also rated staff support as very
low, with the exception of medical and          their job assignment dropped 15% in one year,
safety and security staff,” the AVS results        but the CD’s performance appraisal never
showed that Volunteer satisfaction in                     alluded to this problem area.
medical support had dropped 16 percent
from the previous year. After reviewing the
nine appraisals that did not reference specific
AVS results, we further concluded that some appraisals overlooked significant problem areas or
achievements. In one country, Volunteers’ satisfaction with their job assignment dropped 15
percent in one year, but the CD’s performance appraisal never alluded to this problem area. In
another country, Volunteers’ satisfaction with the CD’s responsiveness, usefulness of
information provided, and approachability increased from FY 2011 to FY 2012 by 17 percent, 16
percent, and 22 percent respectively. However, this significant achievement was not highlighted
in the CD’s performance appraisal.

With the current timing of the release of AVS results, it is challenging to have informed and
impactful inclusion of AVS results in CD performance appraisals. AVS data is collected
annually between June and August and the results are released to the agency around October;
however, the annual performance appraisal period ends in May and write-ups are due 30 days
later. By the time performance appraisals are conducted, the AVS results are approximately one
year old and, consequently, less valuable to the appraisal than timely AVS results would be. This
also limits RDs’ ability to include timely AVS results in the CD appraisals and provide timely
feedback to CDs.

Post senior staff performance appraisals varied dramatically in format and scope and did not
provide an adequate review of each performance element.

In addition to reviewing the 13 CD performance appraisals, we reviewed 10 DMO and 11 DPT
appraisals and noted similar issues with these documents. Specifically, some appraisals only
provide a general overview of performance; others only provide narratives for one or two of the
performance elements. Further, only three appraisals included focus areas for the upcoming
performance period.

Performance plans and appraisals were not always conducted timely.

While performance plans were due to HRM on July 15, 2013, HRM was not able to provide us
the requested 45 post senior staff performance appraisals because the regional offices had failed
to meet this deadline. This delay occurred after we had modified our original request for all 61
CDs performance appraisals. After two months HRM was able to provide most of the reports
after repeatedly reminding the regional offices of the deadline and the related OIG audit
mandated by Congress. However, we noted that three CD performance appraisals, all from the
same region, were conducted outside the 30-day period required by MS 626. In addition, several
CDs said they had not received the written appraisals within the required timeframe even though




Final Audit Report: Peace Corps Overseas Staffing                                              17
the documentation provider later had signatures and dates within the timeframe. This caused us
to question the reliability of the information provided.

Similar issues appeared in the development of the 2013-2014 performance standards. In three of
45 cases, the performance standards were not signed until September 2013, over three months
into the 12-month performance appraisal period. An additional three post senior staff
performance plans were not submitted to HRM as of September 24, 2013.

OGO did not provide adequate oversight or verification that the performance appraisals were
conducted timely or that the written document adequately covered each of the performance
elements.

After the rating official prepares and signs the appraisal, a reviewing official ensures that the
recommended ratings are properly documented and approves the appraisal. For CD performance
appraisals, the reviewing official is the associate director of OGO. Since March 2013, an RD had
been acting as the associate director of OGO. During the performance appraisal period, this RD
had to conduct his/her staff’s performance appraisals as RD and serve as the reviewing official
for over 100 performance appraisals, including CDs from across all three regions. The acting
associate director stated that it was challenging to review the appraisals as carefully as he would
have preferred due to the volume of work. In the case of the regions, there is no oversight
process holding offices accountable when performance appraisals are not conducted and/or
turned in a timely manner.

Although reviewing officials included information from additional sources; the agency did not
have a standard process for gathering additional input for post senior staff appraisals.

RDs are physically distant from CDs and must conduct appraisals based on their interactions
with CDs over the phone, during periodic visits, and informally through other post and
headquarters staff. The level of input that RDs consider when generating appraisals varies. One
RD stated that when conducting appraisals they use the CDs’ self-assessments, AVS survey
results, and any reports from country desk officer visits to help formulate the appraisal narrative.
Conversely, another RD stated that it is critical to gather information from as many sources as
possible. This RD collects input from rovers, desk officers, the respective post’s DMO and DPT,
results of any OIG site visits, and monthly phone calls with the employee to help generate the
appraisal narrative.

While CDs conduct DMO and DPT appraisals, DMOs and DPTs believe that it is critical for
CDs to get input from the headquarters staff that they interact with on a regular basis. One DMO
stated that it is critical to get headquarters staff input, as these staff deal with the technical
aspects of the DMO position and work close enough to know if a DMO is performing
adequately. One DPT stated a desire to have input into the DMO performance appraisal since the
two positions work closely together. Another DPT stated that having 360 degree performance
appraisals done every few years would be useful to get an accurate picture of performance.




Final Audit Report: Peace Corps Overseas Staffing                                                 18
The use of a comprehensive performance appraisal system is critical now that post senior staff
serve as part of a 60-month term.15 Prior to 2013, an RD could effectively remove an
underperforming post senior staff member by allowing their initial 30-month appointment to
expire without renewing their appointment. Now this is not an option and if the underperforming
post senior staff member is left in place, the damage to the post could be extensive. Poor
management can decrease post staff morale, which can lead to the mission-critical work not
being achieved. These issues, if left unattended for too long, can lead to a lack of Volunteer
support and a risk to Volunteer safety. Additionally, since DMOs and DPTs do not serve at the
discretion of the Director, as do CDs, well-documented performance appraisals are needed to
either terminate underperforming DMOs and DPTs or to place them on a performance
improvement plan. Similarly, the performance of underperforming CDs could be improved if a
comprehensive performance appraisal was provided.

The “pass/fail” performance appraisal rating system did not allow differentiation between
mediocre and exceptional employees.

Performance appraisals were not always seen as a valuable activity. All levels of Peace Corps
staff interviewed complained about the “pass/fail” performance rating system. MS 626 states,
“Official ratings for each performance requirement must be either ‘meets or exceeds’ or ‘does
not meet’ the performance standard for an element.” It further requires, “if a supervisor decides
that a rating of ‘does not meet’ is appropriate for a critical element on a performance appraisal,
he or she must put the employee on a PIP [performance improvement plan] and defer the
appraisal for 60 days.”

One RD stated that the “pass/fail” ratings hinders the RD’s ability to manage staff, as it does not
provide adequate feedback or options for a CD to excel. A CD stated that there needs to be more
gradation in the levels of performance. This CD also stated that there are many performance
elements, but what is expected to meet each element is not clear. Clearer expectations are needed
to manage performance.

HRM plans to pilot a four-level rating system for the 2014-15 performance appraisal period. If
this pilot is successful, the Peace Corps will convert the performance appraisal system agency-
wide.

Overseas rating officials were provided limited guidance and training on how to conduct
performance appraisals.

MS 626 does not provide detailed direction or insight on how to conduct performance appraisals.
Some CDs stated that they “feel in the dark” on how to conduct performance appraisals. One CD
would like a training session on how to conduct performance appraisals and providing
meaningful feedback as part of OST. Two other CDs expressed a need for guidance on how to
deal with DMO and DPT performance concerns.



15
 Prior to 2013, post senior staff served a 30-month appointments that could be renewed one or two times. As of
March 2013, any employee hired is now provided a 60-month appointment.


Final Audit Report: Peace Corps Overseas Staffing                                                                19
In June and July 2013, HRM provided a one hour training session to supervisors on the
performance appraisal system. Additionally, HRM plans to conduct more supervisory training in
2014 “to help improve the knowledge and information needed to be effective supervisors.”

Without accurate or timely performance appraisals, post staff did not have adequate information
on their performance in order to make necessary improvements. Without quality performance
appraisals, DPTs and DMOs may not be fully informed of their performance, such as when work
is exceptional or where improvement is needed. Further, staff can become discouraged with the
lack of feedback and direction. By not placing sufficient importance on performance appraisals,
there was little motivation for post staff to improve.

               We recommend:

                   8. That the Office of Global Operations, in coordination with
                      the Office of Human Resource Management, incorporate
                      consideration of the Annual Volunteer Survey results into
                      country directors’ written performance appraisals in a
                      consistent and meaningful way.

                   9. That the Office of Global Operations, in coordination with
                      the Office of Human Resource Management, determine
                      how to overcome the timing differences between the
                      Annual Volunteer Survey and annual written appraisals to
                      better match the performance appraisal period and provide
                      timely Annual Volunteer Survey results for inclusion in the
                      annual written performance appraisals.

                   10. That the Office of Human Resource Management provide
                       biennial training and guidance to all post rating officials on
                       their role in conducting performance appraisals and the
                       level of detail needed to provide adequate feedback.

                   11. That the Office of Global Operations develop guidance and
                       provide oversight of post senior staff performance
                       appraisals to verify that each performance element is
                       consistently addressed in the appraisal.

                   12. That the Office of Global Operations develop an
                       accountability process to ensure all post senior staff
                       appraisals are conducted and turned in within 30 days of
                       the end of the performance period as required by policy.




Final Audit Report: Peace Corps Overseas Staffing                                            20
COUNTRY DIRECTOR TERMINATIONS

The Peace Corps did not provide RDs with guidance for termination of CDs.

While termination is rarely pursued against CDs, there is no guidance on how RDs should pursue
this option or what offices should be involved in the decision making process. Ultimately, the
Director has the discretion to terminate CDs; however, the Director relies heavily on information
from the RDs that supervise the CDs. MS 601 “Administration of the Peace Corps Personnel
System” outlines the overall policies and authorities of the Peace Corps personnel system.
Section 2.6, “Country Directors,” states:

       Peace Corps Country Directors are appointed under authority of section 7(c) of the Peace Corps Act. In
       general, their appointments are subject to the terms and conditions described in section 7(a)(2) of the Peace
       Corps Act, except that their appointments may be terminated at the discretion of the Director at any time
       without notice, notwithstanding any other provision of law or this Manual.

CDs serve at the pleasure of the Director and can be terminated at any time without cause. Since
the Director’s authority to terminate CDs is very broad, decisions should be clearly documented
to ensure fairness and transparency. However, DMO and DPT terminations require a rigorous,
structured process consistent with other Peace Corps employees who serve at headquarters.
Relevant for DMOs and DPTs, MS 601 section 10, “Termination of Appointments,” states:

     (a) Appointments in the Foreign Service may be terminated for misconduct under section 610 of the Foreign
     Service Act of 1980, as amended (FSA), and at any time for reasons other than misconduct under section 612
     of the FSA.

     (b) Terminations pursuant to MS 613 “Probationary Period for Foreign Service Employees”, MS 626 “Peace
     Corps Performance Appraisal System” or MS 652 “Disciplinary Procedure for Foreign Service Employees”
     must follow the procedures provided by the applicable Manual Section unless the employee waives in writing
     his/her rights.

     (c) Employees terminated for misconduct are entitled to the procedures provided by section 610(a)(2)(B) of
     the Foreign Service Act of 1980.

     (d) Employees terminated for other reasons not covered by MS 626 or 652 (e. g. abolishment of position) are
     entitled to 30 days advance notice of termination of their appointments.

Our review of the Peace Corps’ terminations was limited in scope because CDs are rarely
terminated. Since January 2007, the Peace Corps has terminated four CDs and had 22 CDs resign
for reasons that were not always documented. HRM provides support to supervisors for all
disciplinary actions, and when necessary, terminations. HRM also maintains the official record
for personal actions including terminations.

During our interviews, regional staff expressed confusion on how to pursue termination of a CD.
One RD stated that the issue should be brought to OGO first and then the issue will be brought to
the Director jointly. Another RD stated that in the past they brought the issue directly to the
Director. In addition, other offices may be used as resources during the termination process, such
as the Office of General Counsel for legal support. By providing guidance, RDs would have a
formal channel for discussing issues with CDs and the needed support from other offices to
pursue terminations.


Final Audit Report: Peace Corps Overseas Staffing                                                                 21
               We recommend:

                   13. That the Office of Global Operations, in coordination with
                       the Office of Human Resource Management, issue
                       guidance and provide support to regional directors on how
                       to handle performance issues and, when required,
                       termination of country directors.




Final Audit Report: Peace Corps Overseas Staffing                                   22
                OBJECTIVE, SCOPE, AND METHODOLOGY
The objectives of this audit were to: (1) determine how CDs are hired, terminated, and how
overseas staff are hired; and (2) assess how CDs are evaluated, including how the performance
plans mandated by the Kate Puzey Peace Act of 2011 have been implemented and how
Volunteer feedback provided in AVS was considered.

Our conclusions are based on information from two sources: (1) document and data analysis and
(2) interviews. We conducted this performance audit in accordance with the Generally Accepted
Government Auditing Standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.

We relied on data provided by Peace Corps headquarters staff, testimonial evidence from
headquarters and post staff, and Peace Corps’ Intranet. While we did not perform tests of
controls on data provided by headquarters staff, we believe the information we obtained is
sufficiently reliable for this report. Our criteria were derived from the following sources: Kate
Puzey Act and the Peace Corps Manual.

The audit focused on the process of hiring post senior management staff (U.S. citizens only),
performance appraisals, and terminations. We conducted our review at Peace Corps headquarters
from February 2013 through September 2013.

Hiring Process
We gained an understanding of the hiring process by reviewing the Peace Corps Manual, data
collected from HRM, and interviews with headquarters and post staff.

We reviewed job vacancies, position descriptions, interview questions, and application statistics
provided by HRM to determine the desired qualifications and the criteria used for candidate
selection. We compared the position descriptions to the interview questions for consistency. We
also analyzed the staffing vacancy spreadsheets from the regional staffing analysts and verified
vacancy lapses with OGO.

We interviewed Peace Corps senior staff and staff from ORSS, RDs, chief administrative
officers, chiefs of program and training, staffing analysts, and safety and security and medical
personnel to discuss both their roles and responsibilities in the hiring process and to ascertain the
length of time it takes to fill a position and staff placement. We also surveyed 41 post senior
staff, including CDs, DMOs and DPTs to obtain feedback on their hiring experiences,
performance evaluations, post staff hiring and termination practices. Once we completed our
interviews, we were able to create a flow chart documenting the post senior staff hiring process.

We identified other nongovernmental organizations with CD positions comparable to those of
the Peace Corps. Some common factors we considered included internationally based
assignments that stress organizational management qualifications, safety and security experience,


Final Audit Report: Peace Corps Overseas Staffing                                                   23
human resource management of staff in cross-cultural contexts, program development and
implementation, financial management, and representational responsibilities. We did not
interview the organizations about CD positions; however, we used published job description
information to determine consistency with CD qualifications among the like organizations.

Performance Appraisals
We gained an understanding of the performance evaluation requirements by reviewing the Kate
Puzey Act and the Peace Corps Manual.

Initially, we submitted a request to HRM for current and prior year annual performance
appraisals and plans for all current CDs, 15 DMOs, and 15 DPTs. HRM was unable to provide
the requested documentation because it was not available.

Due to time constraints, we modified our request to only include the current year performance
plans and appraisals for 15 CDs, 15 DMOs, and 15 DPTs. We obtained the majority of the
requested files two months later; however, as of September 30, 2013, there were still three
performance plans that were not submitted to the HRM by the regions.

We interviewed post senior staff to confirm that performance reviews were being conducted. We
also reviewed the sampled performance plans, appraisals and AVS results.

We did not review AVS results for every post; we only reviewed the AVS results for the CDs
that were sampled.

Data Limitation
Our report identified data limitations in the receiving the performance plans and appraisals.
Without this data, we could not fully attest that the Peace Corps complied with the Kate Puzey
Act to establish performance plans and conduct annual performance appraisals for every CD.

CD Terminations
We gained an understanding of the termination policy for CDs by reviewing the Peace Corps
Manual and the Peace Corps Act. We interviewed post senior staff regarding their understanding
of the termination policy. We also contacted the Office of General Counsel and HRM to
determine if files are maintained for employees that were terminated or resigned in lieu of
termination. Our review of the Peace Corps’ terminations was limited in scope due to a lack of
historical information available for analysis.




Final Audit Report: Peace Corps Overseas Staffing                                                24
                               INTERVIEWS CONDUCTED
As part of this audit, interviews were conducted with 26 headquarters-based staff in Washington DC,
and 41 overseas-based Peace Corps staff.

                                   Table 5: Headquarters Interviews
                       Position                                             Office
Acting Associate Director                           Office of Global Operations
Director                                            Office of Congressional Relations
Director                                            Office of Human Resource Management
Acting Associate Director                           Office of Management
Associate General Counsel                           Office of the General Counsel
Regional Director                                   Africa Operations
Regional Director                                   Europe, Mediterranean, and Asia Operations
Regional Director                                   Inter-America and the Pacific Operations
Chief of Programming and Training                   Africa Operations
Programming and Training Specialist                 Europe, Mediterranean, and Asia Operations
Chief of Programming and Training                   Inter-America and the Pacific Operations
Chief Administrative Officer                        Africa Operations
Chief Administrative Officer                        Europe, Mediterranean, and Asia Operations
Chief Administrative Officer                        Inter-America and the Pacific Operations
Management Analyst                                  Africa Operations
Management Analyst                                  Europe, Mediterranean, and Asia Operations
Management Analyst                                  Inter-America and the Pacific Operations
Manager                                             Overseas Recruitment, Selection and Support
Administrative Staff (2)                            Overseas Recruitment, Selection and Support
Expert/Overseas Medical Clearance                   Overseas Recruitment, Selection and Support
Expert/Pre-Screener (4)                             Overseas Recruitment, Selection And Support
Information Security Specialist                     Information & Personnel Safety/Security
Data as of September 2013.

                                      Table 6: Overseas Interviews
                        Position                                            Office
 Country Director (4)                               Africa Operations
 Country Director (6)                               Europe, Mediterranean, and Asia Operations
 Country Director (4)                               Inter-America and the Pacific Operations
 Director of Programming and Training (5)           Africa Operations
 Director of Programming and Training (5)           Europe, Mediterranean, and Asia Operations
 Director of Programming and Training (4)           Inter-America and the Pacific Operations
 Director of Management and Operations (4)          Africa Operations
 Director of Management and Operations (5)          Europe, Mediterranean, and Asia Operations
 Director of Management and Operations (4)          Inter-America and the Pacific Operations
Data as of September 2013.




Final Audit Report: Peace Corps Overseas Staffing                                                 25
                          LIST OF RECOMMENDATIONS
WE RECOMMEND:

1. That the Office of Management develop and implement a formal policy and procedure for
   conducting post senior staff hiring. This policy should define roles and responsibilities,
   timelines, and accountability.

2. That the Office of Overseas Recruitment, Selection, and Support develop a hiring timeline
   using statistics on the length of time to process an applicant through each stage of the hiring
   process.

3. That the Office of Global Operations develop a master calendar of all known upcoming
   vacancies for the post senior staff positions.

4. That the Office of Global Operations and Office of Overseas Recruitment, Selection, and
   Support develop a process that ensures that information on what qualifications are needed to
   fill upcoming vacancies is communicated and provide feedback on the pre-screening process.

5. That the Office of Overseas Recruitment, Selection, and Support develop a set schedule for
   candidate roster development, issuance, and maintenance.

6. That the Office of Global Operations and Office of Overseas Recruitment, Selection, and
   Support implement a formalized process for the internal transfers of current post senior staff.

7. That the Office of Global Operations pursue a formalized approach to rover positions to
   ensure adequate coverage of unexpected post senior staff vacancies.

8. That the Office of Global Operations, in coordination with the Office of Human Resource
   Management, incorporate consideration of the Annual Volunteer Survey results into country
   directors’ written performance appraisals in a consistent and meaningful way.

9. That the Office of Global Operations, in coordination with the Office of Human Resource
   Management, determine how to overcome the timing differences between the Annual
   Volunteer Survey and annual written appraisals to better match the performance appraisal
   period and provide timely Annual Volunteer Survey results for inclusion in the annual
   written performance appraisals.

10. That the Office of Human Resource Management provide biennial training and guidance to
    all post rating officials on their role in conducting performance appraisals and the level of
    detail needed to provide adequate feedback.




Final Audit Report: Peace Corps Overseas Staffing                                                26
11. That the Office of Global Operations develop guidance and provide oversight of post senior
    staff performance appraisals to verify that each performance element is consistently
    addressed in the appraisal.

12. That the Office of Global Operations develop an accountability process to ensure all post
    senior staff appraisals are conducted and turned in within 30 days of the end of the
    performance period as required by policy.

13. That the Office of Global Operations, in coordination with the Office of Human Resource
    Management, issue guidance and provide support to regional directors on how to handle
    performance issues and, when required, termination of country directors.




Final Audit Report: Peace Corps Overseas Staffing                                               27
                       APPENDIX A: LIST OF ACRONYMS

   AVS                         Annual Volunteer Survey
   CD                          Country Director
   DMO                         Director of Management and Operations
   DPT                         Director of Programming and Training
   HRM                         Office of Human Resource Management
   MS                          Peace Corps Manual Section
   OGO                         Office of Global Operations
   OHS                         Office of Health Services
   OIG                         Office of Inspector General
   ORSS                        Office of Overseas Recruitment, Selection, and Support
   OST                         Overseas Staff Training
   RD                          Regional Director
   SS                          Office of Safety and Security




Final Audit Report: Peace Corps Overseas Staffing                                       28
   APPENDIX B: AGENCY’S RESPONSE TO THE PRELIMINARY
                        REPORT




Final Audit Report: Peace Corps Overseas Staffing     29
 a„) .4                                               to                                    cn                                                                                                                        v..
 v) -'                                                -4                              cu (1)                       .-z ..zi                                                                                          •....1
                                                                                                                                                                                                                        ..-I
                                                                                                             ,..                                                                                            a) cizt
                                                                                                                                                                                                            i-4
 5—                                                   a) -ri                   to           as                0                                                                                             czt 0
  -cs                                                                                                                                                                                 ;-4                   up0 v) c..„,0 -0 to
                                                                                                          cu 0 rA ___   cci                                                           0
                                                                                                                                                                                     4~                     a) 1.)>r . cn ct
                          cn  a.)       rzt           a) '73             =1       up -ci                  cn                                                                                                ;--4
.-. 0                    77i ;-,
                              ct        ;..4          ;-.                                                -0 7:, 5 ,/,                                                                 cu cn-                         (-) LI)
                                                                                                                                                                                                                r••••■             :-., -0
 c5 (..►                                 cu             ., a)            0 ° 1     ) 6                                                                                                                               ,...-,
                              cri        Q.,         ,---. a)                                        a..) ,,, • E ;75 ,,                                                             ''' • `1?-,
= ,....,,                 cd .                                           a.) <-2, 1.) 1                                                                                              -ci —
                                                                                                                                                                                         --.
                                                                                                                                                                                      a) ..-.
                                                                                                                                                                                                            1.)
                                                                                                                                                                                                            U -4--r c) a)
                                                                                                                                                                                                            0
                                                                                                                                                                                                                            -cS C -0 cid
                                                     c)                              c73 cn          c+-1 ad 4a 't-. E                                                                U _0                  ;.. (1) 0 0 " 6 up-
                                                                                                                                                                                            .!t
                                        7i                    0         7:) ;-,
                                                ct                                                                                                                                                                   -
                                                                         c.„_.   ct ,4
           0
                         0 21                                c..)           ,,, ,-, .4_,              0 cu a) .. 0                                                                            vi
                         ,.., 0          cid i/1
                                             s-4 sue. c.)               1-,                          ,—t
           0             V 8            +a' a) C:2 M                    ce) . Q c-ii • tO.--1        7,d ct E ›' tn                                                                  -ci al,                                            cu e-4
                                                                                                         krp 0 • ,-4 cd                                                                   v)                czt 9 0
                                                                                                                                                                                                            Ta:
                                                                                                                                                                                      ct a)                  zi                    ..., ct
                                         czt                                                         s-4 0 4-0 0 0                                                                                          ct a) ,•c.
                              (4-4                                                                   9 ,.. „,-t Cl
                                                                                                     (.                a)                                                                                                              -52 • --4
 Sa4 i-4                  to             as                             E ct C14                                v, —,, (..,                                                                                                                .-....
 a) 0                         "Zi                     ;-4 '4                                             -4-' - a) Td —                                                                      cll            cp.) . 0  0 "''-'
                                                                                                                                                                                                                     45    CS 0 • 7.-.;
           c.)           -,-. a)                                        te„ ,2,..„) 75 .    •••■                                                                                      a:t
                                         0                                                                         TU         5 *4=                                                                         o cl O E o     ra, .-t-. • cn
                                                                                                                                                                                                                               -0
Cf) •                           (1)
                                                     (...)    '-'            cE'
                                                                        CA • ' t ,-Ci
                                                                                   el S..,
                                                                                                     V)
                                                                                                                                                                                      O
                                                                                                                                                                                             N                                 -ti o
                                                                                                                                                                                            ,,-,                      7-4
                                                                                                                                                                                      cct -~
                                                                                                                                                                                           a,               co
                                                                                                                                                                                                             cujt g 4.-
                                                                                                                                                                                                                     H                          N
,.......         ;-;     c4-, cn         0 E-4 v) cn   •-4--            • cn
                                                                          v. r. . V) ia.                                                                                                                             O) -''ctL') - au>ri) cz
                                                                                                                                                                                                                                           9
                                                                                                                                                                                                                                           c d ':
                                                                                                                                                                                                                                                D
                                i....   • •-,  v) • I)
                                                    •- • EA                                                         '2' 2 .4;711 E
                                                                                      „,
                                                                                      .-,                                                                    a.)
                                                                                                                                            E
                                                                                                              ,, a.)0E.8                    a) 0           .-. C+-1  0 .. ta0 a) c)           (I5
                                                                                                                                                                                                    ci)
                                   0       V_, 0., cct cn                ?7) cvi ct 0                         o
                                                                                                              0 ta0 t411 a)                -, 4cn
                                                                                                                                                ••                    cu V) 744 c..)                 ° 5  •
v) .1)                     P.         v) c.4-4                                      0                                                                      ... c.)         cf) z F,,i 4 O            , .4
7:1 ...E-, ›-,           • c..-.3( v) ct o =        > -,45.,                                c.)                                                   ›,                  ... rz4   s-4
                                                                                                                                                                                 a)                       4-4
 CZ • al                                                                •.1 - -',, t.
                                                                                                             r:4 r.A' 71.` E     S-” 'P
                                                                                                                   ;.I CA • ,. (1)
                                                                                                                                        t
                                                                                                                                           - • --             v) (+-4 0
                                                                                                                                                           . -4                      --0 -. --4 (I) qg
                           CZ         CI) C.) cz3 a)0 4±, ..                                                                           0          0           X0               ....            t).0 ....,   cn
 O iab a)                  r:1 "ci                                                                                                          al fa,           a) cu
 0 a) 1--4rTh                   a) > (1) ;.-4 a)   vl (1)
                                                       -0 0
                                                                                     c+-4 -ci        c. -.S 3 • !=4. *-10...4    .4   4-'                    >,     ..
                                                                                                                                                                               7:.$ C.- "D a) i.
•.1                        a.) c.) 0          t:45                      • -4 a) 0 a)                                                        C14  up                                          ,4             0
 (..)                            0 ;-4        44
                                              9 a.) n VD                                             0 (1) •.--,■       ,-J-4
                                                                                                                       .,_•
                                                                                                                              -+-■     cn
                                                                                                                                       a)   0 --4
 a) to .-                        -.4 <4-,
                          ,-. ;fa.,  0 cu              (
                                                                         c .j) sai         c..)      ,,,,,.. cu
                                                                                                              >           8 ,.0 6       /, Tu'   L-■                       o.1.1 ! 6° H LF-1         CI) .0




                                                                                                                                         HIRINGOFOVERSEASSTAFF
 a) m _ ti-4               czt c4-4 v)                 6 ,..             u °
                                                                        ,.c           u '1)
                                                                               -cr)4 .d                      =1
                                                                                                      (1.) (1) cn ;--, •.. $:1,
                                                                                                                               ,z), 0       cll .. ,                -.               ' • - ' "" ;-, -,-,
v)         0                     0 cn cl) a) 0         c..)1,-1
                                                             0                             cd                                              -71 ,....,
      ct                 ,- +-•
                                                                         .
                                                                         0 >                -.        E -° 8
                                                                                                      CU cn Lill
                                                                                                                        a .1     ci) 5)
                                                                                                                                                                      0 0 0       -4 ,4 -cj ...CL) rn
 t                (1)
                  C.),
                 tz-4    •      .a) 0 0 --. 8 ° P-,
                                      s.. 0 c) to .-. .-
                                                                                0 (1)
                                                                        Tzi -zi ,- to                 CD (1) ,-I-4 V) ''Zi                      .- --1        to    .-0 0, te..




                                                                                                                                                                                                                                                    Documents to be Submitted:
                                                    0      •-""          a) ;--, H ;c)-4              ct 0                                  a) —0                   -0           eii `
                                                                                                                                                                                 '—'   43-1...ci) 4-4 bo
                                                                                                                                                           •'-'            CA (-. V)
                                                                                                             Lill a.)
                                                                                                       czt ce-4                t4c_4
                                                                                                                                 ,14 ,-E,   a)             .-.      as           = ;.4 4-. rn • ,--4
. a)                                                                     CZ1 v) En                                 v) .....,                CIO                                                taL)         C.)
      t,7-2, ,.                               .0
                                               _, • -.                  ,.             5
                                                                                      +_, 0                   CD CL)
                                                                                                              a)   .4 cn  0 (5' .54         czt :t/1 ,-(:)  4.-4 v) d .) • --,                      71
                         0 ct 6/) .,_, -Ti a)                                                                                                          ct
                                                                                                                                            ct 0 4.-■
                                                                                                                                            cc ;-■                               ct a) T2,
..., L.) • ,--4                                                                                                                                               cm
                                                                                                                                                               .-1 El'                  v)           ct
                                                                                                                                                                      c„ 01




                                                                                                                                                                 Recommendation I:
                                                                        (...   -i--   0     ;
                                                                                            -4
1-1•4
                         -4-., Sa,
                                                                    0
                                                                        0 7:3 0 ti)                   a) 7= .-■                  0 ....        ••a4           a)                        ct
  v) .-,CL) 0                           7:3 6) a)
  0                       (1)                                                                                                                               t,...1 o   a) __t
                                                                                                                                                                            a) ..(o , .c .,n • - , c1 , , '0.-.
                                                                                                                  • 2 •-             75          -4- c\:$     c l.) c t N -4-ou
                                                                                                                                                                                      (1)
                                                                                                                                                                                      c.)
                                                                                                                                                                                      0
                                                                                                                                                                                     47.1 o
                                                                                                                                                                                          u' -0
                                                                                                                                                                                          ai  8     ....-4 4.
                                                                                                                                                           "2CZa•V     a) Ci
                                                                                                                                                                           f=. g CD  t.4> ... ".°
                                                                                                     -4.-.                         I.)
                                                                                                                                                                                     ,...1
c41-4 a) t41
           -44            c,ct            •           •                 0 a.) H                                               cd                                                           •9.1 v           fi) •Z E a) C-(1). e
                                                                                                                                                                                                                               t          .,
 0 I-. c41-4              E •                                                                         tiO E        E                                                                   (1.)•4. CD
                                                                                                                                                                                     •4 C)                                     Q             :
                                                                                                      05            0 a.),5                                                                     .                                :711 • ".'
  c.) ,47.1
,+,74   0 a).                                                                               H ;-'
                                                                                              CL)    .4   0         0 C.) 0 .,:4                                                                            :F2, •E .0
                                                                                                                                                                                                                     ;! :"Zi 7:1 > .2 0
                                                                           4 a.) p.., cn     -4.-+   -4- c.,        c, o o                                                            t''Z3 "Ci 7)4
                                                                                                                                                                                          =           C
                                                                                                                                                                                                       0                       0        0 •-, c.)
(I-4 (4..., CI)
                                                                        Z ..)8                                                                                                         0 s-,                           o oCl., Q., cl
                                                                                                                                                                                                                                   c.)
 0 o -..._.                                                                 Cip,4-4.,Th
                                                                                     /.....1 a)
                                                                                             ;-I          2            Ste. 8 c4                                                     H o -4.-2.       C.)   a. 0 r:4 0 C.)
                                                                                                                                                                                                                                                                                                                                                       2 '-t
                                                                                                                                                                                                                                                                                                                                                         CD CD
                                                                                                                                                                                                                                                                                                                                                             " H
                                                                                                                                                    CD
                                                                                                                                                          O
                                                                                                                                                                                                                                                                                                                                                         0 CD CD                     •P




                                                                                                                                                                                          •
                       •                                                                                                                                                                                                                                           •                                                                                                                                                •                                                                            •
                                                                                                               0 0                                  0                                                                                                                                                                                              4         CD 0               •-••••
                                                                                                                 °                                                                                                                                                                                                                                 P S
                                                                                                                                                                                                                                                                                                                                                     $ 4D-                <
                                                                                                               O                                                                                                                                                                                                                                   0, cm
                                                                                                                                                                                                                                                                                                                                                      0 CD CD -i                v) CD
                                                                                                                          •=t-                      vp-                                                                                                                                                                                                      ca., Pi,           o
                                                                                                                                                    O
                                                                                                                                                                                                                                                                                                                                                   0 o c)- ,_• • 0
                                                                                                                          CD
                                                                                                                                                    0                                                                                                                                                                                                                           N (-)CD
                                                                                                                                                    CD




                                                                                                                                                                                          I £LINMAI
                                                                                                                                                                                                                                                                                                                                                                          CD 1-t.)
                                                                                                                                                                                                                                                                                                                                                                         C14




                                                                                                                                                                    :E uopupuatutuoaall
                                                                                                                                                                                                                                                                                                                                                             ,-t-                              :z uopupuatumoaall
                                                                                                               CS 72                                                                                                                                                                                                                                                            CD




                                                                                                                                                                                          .17 OZ
                                                                                                                                                                                                                                                                                                                                                                                                                    1I OZ E tlareIAI



                                                                                                               up
                                                                                                                                                                                                                                                                                                                                                   0 cm 0 m               O "
                                                                                                                                                                                                                                                                                                                                                   C-)1 --' —,-
                                                                                                               P                                                                                                                                                                                                                                   00                     ••-r CD
                                                                                                                                                                                                                                                                                                                                                   - o•-,     $'-'• a         • C4




                                                                              :palltuqns aq sjuatunaoa
                                                                                                                                                                                                                                                                                                                        :pammqns aq o3 sjuamnaoa
                                                                                                                                                                                                                                                                                                                                                      CD ICI' 0
                                                                                                                                                                                                                                                                                                                                                              '.." =      CD
                                                                                                                                                                                                                                                                                                                                                      v) ■-t        '-
                                                                                                                                                                                                                                                                                                                                                                    c-D:        CD
                                                                                                                          CD                                                                                                                                                                                                                             a ■              o
                                                                                                                                                    CD                                                                                                                                                                                                                          E.
                                                                                                                                                                                                                                                                                                                                                               —• v)_ .
                                                                                                                          CD                        CD                                                                                                                                                                                                              ,....
                                                                                                                                                                                                                                                                                                                                                                    H-r" (D
                                                                                                                                                                                                                                                                                                                                                                          r:L   o"
                                                                                                                                                    CD                                                                                                                                                                                                 C4
                                                                                                               CD




                                                                                                                                                                                                      Statusand Timeline for Completion:
                                                                                                                                                                                                                                                                                                                                                                   CD                  CD
                                                                                                                                                                                                                                                                                                                                                                                                                                       Statusand Timeline for Completion:




                                                                                                                                                    or                                                                                                                                                                                                 CD
                                                                                                                                                                                                                                                                                                                                                       1--■
                                                                                                                                                                                                                                                                                                                                                          -)                           sr-r-
                                                                                                                                                                                                                                                                                                                                                                CD
                                                                                                                                                    0                                                                                                                                                                                                  0 ■   -■
                                                                                                                                                                                                                                                                                                                                                              P    P
                                                                                                                                                                                                                                                                                                                                                             E.           S.•
                                                                                                                                                                                                                                                                                                                                                                          '-'           CA
                                                                                                                                                                                                                                                                                                                                                                    0..
                                                                                                                                                                                                                                                                                                                                                          c n
                                                                                                                                                                                                                                                                                                                                                       — Crq)   — E.
                                                                                                                                                                                                                                                                                                                                                          ,..+, 7=i n)
                                                                                                                                                    CD                                                                                                                                                                                                 D < CA C/D              F)" CD
                                                                                                                                                                                                                                                                                                                                                               P
                                                                                                                                                                                                                                                                                                                                                               0CA CD
                                                                                                                                                                                                                                                                                                                                                       0 p                ,2
                                                                                                                                                                                                                                                                                                                                                                    P CD
                                                                                                             P pr                                                                                                                                                                                                                                      ,-t 0
                                                                                                         "CS                                                                                                                                                                                                                                                   cw .
                                                                                                          " 'CI Cr                                                                                                                                                                                                                                                        cr
                                                                                                                CD                                                                                                                                                                                                                                     .--
                                                                                                                                                                                                                                                                                                                                                       <• v)        P CD
                                                                                                               ph.,       g
                                                                                                                                                                                                                                                                                                                                                       0- 0 .-'7' "           (xi
                                                                                                         Q.                                                                                                                                                                                                                                            0             CD —'
                                                                                                         (1)              (1)
                                                                                                                                                                                                                                                                                                                                                       ,--. •       P -P
                                                                                                                                                                                                                                                                                                                                                                     0., -     P
                                                                                                                                                                                                                                                                                                                                                       0            k< t)
                                                                                                                                                                                                                                                                                                                                                       mss '                       fa-
                                                                                                                                                                                                                                                                                                                                                              CD Cr C)
                                                                                                                                                                                                                                                                                                                                                       Pv) o cfc;   o, "--C.)      <
                                                                                                         0
                                                                                                               0                                                                                                                                                                                                                                       CD ■    -. •      cm        ra,
                                                                                                                                                                                                                                                                                                                                                       0-                     171c? 0
                                                                                                               crq                                                                                                                                                                                                                                     r) g .,• ..•             o ■-c$
                                                                                                                   •-•
                                                                                                                                                                                                                                                                                                                                                                                0p
                                                                                                               CD                                                                                                                                                                                                                                                    )
                                                                                                               CD                                                                                                                                                                                                                                                   — 'a'
                                                                                                                                                    0                                                                                                                                                                                                                           CD ■
                                                                                                                                                                                                                                                                                                                                                                                    r-;"
                                                                                                                                                                                                                                                                                                                                                                                    -• •
                                                                                                               1:-.t• •                                                                                                                                                                                                                                                   (1)           rq
                                                                                                                                                                                                                                                                                                                                                                                       crq
                                                                                                                                                                                                                                                                                                                                                                    CD .1
                                                                                                                                                                                                                                                                                                                                                                                                                                                                            Theupdated policyand guidance documentswill besubmittedtotheOIG.




                                                                                                                                                    0•                                                                                                                                                                                                 F)" 0              o     Et :
                                                                                                                                                    CD
                                                                                                                                                                                                                                                                                                                                                                                cr4 CCD
                                                                                                         CA                                                   CM?                                                                                                                                                                                            0 0. or
                                                                                                                                                                                                                                                                                                                                                       Cr    CD
                                                                                                                                                                                                                                                                                                                                                             r) O               8
                                                                                                               CD                              CD                                                                                                                                                                                                      CD       H—                      CD
                                                                                                               va                                                                                                                                                                                                                                                               CD
                                                                                                               I)




                                                                                                                          Puu 000 Pur SS110/
                                                                                                                                                                                                                                                                                                                                                       ' -' -                           ci)
                                                                                                                                                                                                                                                                                                                                                       CD a ,5c-.". ;-.                 ■
                                                                                                                                                                                                                                                                                                                                                                                        -• •




Thiswill besubmitted withthedocumentsprovided inresponsetoRecommendation 1.
                                                                                                                                                                                                                                           Thiswill besubmittedwiththedocumentsprovided inresponsetoRecommendation 1.




                                                                                                                                                                                                                                                                                                                                                       CD
                                                                                                                                                                                                                                                                                                                                                                                       CM?
                                                                        11
                                                                        .-4        0
                                                                                                                                                                           This will be submitted with the documents providedin response to Recommendation 1.




                                                                                               0           a)
                                                                         o              -4.: 3            tte                                                                                                                                                                                                                                 ;••■ 0           a)
                                                                                   b40         cu
                                                                                             • ,-.4        0
                                                                                                          •.-■                                                                                                                                                                                                                                     a)
                                                                                                                                                                                                                                                                                                                                                                    0
                                                                  "ci -7:i u3v  )  a.)         >     >-■  7:3                                                                                                                                                                                                                                      o +Ei           +Ei
                                                                                                                                                                                                                                                                                                                                                                    c
                                                                                  .0 B         a) 7- 1j                                                                                                                                                                                                                                       a)   0
                                                                   czt 7:3 cu
                                                                         ou c..)                     > 0                                                                                                                                                                                                                                      =    czt •-4 a)
                                                                                                                                                                                                                                                                                                                                                              7:$
                                                                             ;..,                                                                                                                                                                                                                                                           -c3   -73 !..,          a)
                                                                                  -0   ;•• ■ -C3    -t-j C..) En
                                                                                                                                                                                                                                                                                                                                                   d 0 cu
                                                                                                                                                                                                                                                                                                                                                          0
                                                                  ...-) s•-■       0 a.)                                                                                                                                                                                                                                                    -00
                                                                   c.) al C)1)     o   ;.-■    c.) 0 tO -.1.=                                                                                                                                                                                                                                 U
                                                                                                                                                                                                                                                                                                                                              cn   0 c-) c4
                                                                                                                                                                                                                                                                                                                                                  ...  •••■
                                                                                                                                                                                                                                                                                                                                                          •10
                                                                                                                                                                                                                                                                                                                                                                    E
                                                                                                                                                                                                                                                                                                                                                   c, •■■           0
                                                                                                                                                                                                                                                                                                                                             -4■J      • v.1 • 1..
                                                                                                        I




                                                                   cu 0                        0 0  --■                                                                                                                                                                                                                                       0                     a)
                                                                  V) 0 cu                        cn    :••■
                                                                                                          0 t                                                                                                                                                                                                                                 v)   5    >          r24
                                                                             a)                                                                                                                                                                                                                                                               czt
                                                                        171 0                  Z ;••■                                                                                                                                                                                                                                              0 0 E            0
                                                                         Eu cn                 d
                                                                                                 ct ! 2., Cli
                                                                                                            ct
                                                                                                     d r)   cd                                                                                                                                                                                                                              0                                                                     C.)
                                                                                                                                                                                                                                                                                                                                                                0 0 c.)                                           cip
                                                                                                                                                                                                                                                                                                                                            >                   >
                                                                                                                                                                                                                                                                                                                                                               ,;,.                                               0
                                                                         =                                                                                                                                                                                                                                                                  a)                      0
                                                                   c.) cr 75                         1 '-.1-0 0 bi) •.--■
                                                                                                                     2 l-ii
                                                                                                                        c
                                                                                                                        ct                                                                                                                                                                                                                  d
                                                                                                                                                                                                                                                                                                                                            -                   v) ct cid
                                                                   a) 472                                 ..--.                                                                                                                                                                                                                             t
                                                                                                            .) .0 •4                                                                                                                                                                                                                                           •0c+-.1
                                                                                                                                                                                                                                                                                                                                                                50 ,,,,
                                                                                                                                                                                                                                                                                                                                                                   (f) ,
                                                                  [..; ,. E                       v) cz
                                                                                                  ,.„  . cu ,.,-                                                                                                                                                                                                                            0
                                                                         ..-                    ,1-,-, •.. ,-, 0 . ._cu.
                                                                                                = cn 0 c.)
                                                                   cU              ck-.$....
                                                                                         rm
                                                                   v) 0 0ckl    0
                                                                                   i
                                                                                   P rd '+''
                                                                                                0 0 •.4 0
                                                                                                              cci                                                                                                                                                                                                                           c.) _!
                                                                                                                                                                                                                                                                                                                                                Q,              eu .. .—I                                         CI)
                                                                                                                                                                                                                                                                                                                                                                                                                 -0
                                                                   ;-■         az  cu 0 E ...   CD tide ;-■   (..)                                                                                                                                                                                                                          7i 0                      •vl
                                                                                                                                                                                                                                                                                                                                                                       •••I
                                                                   0 0 7:3         73     7.j § c
                                                                                                " 'A  ci) (.2 ›
                                                                                                              ct                                                                                                                                                                                                                                               .-4J
                                                                  __,
                                                                   › 0 a)                             a) "i                                                                                                                                                                                                                                  d ct                 0
                                                                                o
                                                                  (...) 4--.! t4_4 0 cu c.) •-■       ._,     CDA
                                                                  (4-4 cz                            ,,-,                                                                                                                                                                                                                                    0- (I)   v)
                                                                                                        7 P5                                                                                                                                                                                                                                 0 1-1
                                                                                                                                                                                                                                                                                                                                            .0   ...  0   ;...
                                                                                                                                                                                                                                                                                                                                                                  ci)
                                                                            ....               cd ct
                                                                                                  b0 cl 0 0 Sr.                                                                                                                                                                                                                                 •-■  -,-.
                                                                                                                                                                                                                                                                                                                                                      v) cc: vi"
                                                                          0 >                                   • E
                                                                                                             !.=■                                                                                                                                                                                                                            o ct                 a)
                                                                  t474           °                      ;•-•
                                                                                                               C,..)   CD 0
                                                                                                                       C.) • -4
                                                                                                                                  C)
                                                                                                                                  C.)                                                                                                                                                                                                        0 0            c1)
                                                                                 i.                Ct                                                                                                                                                                                                                                        cu       cu cd v)
                                                                  CI-I • •--,                  Ctt E C.) ›•      • 4-J Q.1
                                                                                 C:1.1
                                                                                 „0            V)     • •-■
                                                                                                          7-•
                                                                                                                   ,••■
                                                                                                              CU CID                                                                                                                                                                                                                        VD-c:J0  -0 v) s. •
                                                                                                                                                                                                                                                                                                                                                                0
                                                                                      . ,--, a) ,—,                    -4 p ,--4                                                                                                                                                                                                                                                                                  0
                                                                  "0 •4                                +a io                                                                                                                                                                                                                                -4•-•' CI           >
                                                                                                                   " .-




                                                                                                                                                                                                                                                                                                                                                                                                                         Status an d Timeline for Completion:
Status an dTimeline for Completion :




                                                                                                                                                                                                                                                                Status andTimeline for Completion:
                                                                                                                                                                                                                                                                                                                                                                                                                  a)
                                                                            a.) "t:i  ....
                                                                                       .,..,      a)           ;••■
                                                                                                                  C 0 o                                                                                                                                                                                                                                         ,_, .4...
                                                                                                                                                                                                                                                                                                                                                                    •- 0 —
                                                                            i-i (1)     CZ .."' >              $-4 Cd                                                                                                                                                                                                                       lE) 6-)
                                                                                                                                                                                                                                                                                                                                                 u-                             0
                                                                   0 Cn CZ
                                                                                 .4-t -c:3 t•-■                0 0                                                                                                                                                                                                                          ... _
                                                                  ••-■             .)             ;-.,                                                                                                                                                                                                                                      0 -,               _2. (L) cz: ,•
                                                                                        CD (...                v) > 0                                                                                                                                                                                                                       ,. .                             'LI'
                                                                                                                                                                                                                                                                                                                                                                     .., . •-c)
                                                                                                                                                                                                                                                                                                                                                               ci) st...
                                                                   A-s•Cil CL) • E                0
                                                                                             0 c4--, ,-T  -,4 t te,;••4.1""
                                                                                                                         c74                                                                                                                                                                                                                0 ,(44,
                                                                        -• .,                                                                                                                                                                                                                                                                cu                VD
                                                                   CL) ct
                                                                                                       1..■
                                                                                                                                                                                                                                                                                                                                                               r:4 -:‘, .`-'24ct0                                -a.)0




                                                                                                                                                                                                                                                                                                                                                                                    Documents to be Submitted:
                                                                                                                                              Documents to be Submitted:
                                                                   1:1-■   -0 E       - E -. .,_, 7i -3 szl. 0 o
                                                                                                                                                                                                                                                                                                                                            P4 A--r                    VI/ CU
                                                                                               0                        q-
                                                                                                                         --1                                                                                                                                                                                                                V)
                                                                                               c.) •R czt cz9 p4c1) c..) 71$                                                                                                                                                                                                                M
                                                                                                                                                                                                                                                                                                                                                  CU                  •■
                                                                                                                                                                                                                                                                                                                                                                       -i -4-. CD
                                                                  7'7; 'S' °
                                                                           c.)                 ;..,0  cu CJ0 -4'
                                                                                                      c/c                                                                                                                                                                                                                                                      <4-4 at 0 ct    cu




                                                                                                                                                                                                                                                                                                     March 3 1, 2014
                                       4                                                                       cu (9 cr                 (A                                                                                                                                                                                                  cu 0
                                                                                                               0                                                                                                                                                                                                                            ,.,> EU            • cn--. r . ›, ;-.
                                                                                                                                                                                                                                                                                                                                                                           0 c.)




                                                                                                                                                                                                                                                                                                                       Recommen dation 5:
                                              Recommendation 4:

                                                                                                                       E                                                                                                                                                                                                                                                                                          Ct
                                       01                                                      +_) o    cz                 —, 0                                                                                                                                                                                                                                                                                   a)
                                       2                                                       c.1-1                      = "Zi • v--I
                                                                                                 O 0 .—                                                                                                                                                                                                                                              ,--■
                                                                  (4-4 c 73 7),                            -4-J
                                                                                                                          i...
                                                                                                                          o    o cu-7••
                                       31,                                P., CZ                      0 . —,.4   -4-.• o 0 a) a,                                                                                                                                                                                                            0. -c7i
                                                                                                                                                                                                                                                                                                                                                ;•-,
                                                                                                                                                                                                                                                                                                                                                     +-■
                                                                                                                                                                                                                                                                                                                                                     0 cip u-1 .—,
                                                                                                                                                                                                                                                                                                                                                                _, v—i
                                                                    (1) 0                                                 i.                                                                                                                                                                                                                1.) c)   d
                                                                    0 ,-,     0                .0.--4 o . g ,          —■                                                                                                                                                                                                                   CU -4-              ;-.4 Cip 2 3
                                       h                          tC.•4724i Q)                                           "C .                                                                                                                                                                                                                   v)
                                                                                                                                                                                                                                                                                                                                                                fa, c3 ,..
                                                                     >>
                                                                                                      a-u• o       -Coo                                                                                                                                                                                                                                               ,,,
                                       Marc                       l  cJ                                       , to aa)) czt 0                                                                                                                                                                                                                                         '.1 ,4 0
                                                                  O --z
                                                                                                                                                                                                                                                                                                                                            0     „;                  cu ... .,.
                                                                                                              n •— ,c23. u) •                                                                                                                                                                                                               a.) 4-'
                                                                                                                                                                                                                                                                                                                                                 al     i..,
                                                                                                                                                                                                                                                                                                                                                                0
                                                                                                                                                                                                                                                                                                                                                                       > a) 0
                                                                                                                                                                                                                                                                                                                                                                              v)                                 H
                                        •                                                                                                                                              •                                                                                                               •                                        ....    C.)     C.)                                               •
                                                                                                        0 to t) > „, 0            0 ,..,                                                                                                                                                                                                                =       a) ,-  2 Cid)
                                                                    c73 P., c.)           ©
                                                                                               Tii
                                                                                               E     0 ,,,                                                                                                                                                                                                                                              0              C.) 1.)
                                                                  ...            fa,           =     0 E u ,4                           0                                                                                                                                                                                                   ,-0
                                                                                                                                                                                                                                                                                                                                            ,   Ct             ,4 eziC
                                                                  E---( v) =             C.)         0   ,_o _i_.           cc! '-'c    c.)
                                                                                                                                                                                                                                                                                                                                                   • a
                                                                                                                                                                                                                                                                                                                                                                        ▪




                                                                                                                                                                   AD




                                                                          •
                                                                                                                                                                   O
                                                                                                                                                                                                   •                                                                         •                                                                                                                               •
                                                                                                                                                                   C)


                                                                                                                                                                   O
                                                                                                                                                                   CD

                                                                                                                                                                   cp
                                                                                                                                                                                                                                                                                                                                                                     0 p)
                                                                                                                                                                   CD




                                                                                                                                                                             :% uopupuatutuoaall
                                                                                                                                                                                                                                                                                                                                                                                       :9 uo!jupuamtuoaall


                                                                                                                                                                                                                                                                                                                                                                     ..Dt
                                                                                                                                                                   or
                                                                                                                                                                   CD




tI OZ'1E 110-Te1A1•
                                                                                                                                                                                                   17 I OZ `IEtlareIN
                                                                                                                                                                                                                                                                                                                                                                                                             17I OZ`I EtlareIAI




                                                                                                                                                                                                                                                                                                                                                                              CD
                                                                                                                                                                                                                                                                                                                                                                     ,-'•-•   C)
                                                                                                                                                                                                                                                                                                                                                                              ,--,
                                                                                                                                                                                                                                                                                                                                                   P                          L.-)
                                                                                                                                                                   CD




                                                                                                                                        :pammqns aq of sjuaumaou
                                                                                                                                                                                                                                                                                                                      :pajmuqns aq 03 sjuatunaoa
                                                                                                                                                                   C)                                                                                                                                                                              a        ,.., CD ,--. • 0 phD
                                                                                                                                                                   0                                                                                                                                                                               P                           <
                                                                                                                                                                                                                                                                                                                                                   - cA                     < r°
                                                                                                                                                                   CD                                                                                                                                                                              CM,--,, ,--3 a (IQ
                                                                                                                                                                                                                                                                                                                                                   CD,
                                                                                                                                                                                                                                                                                                                                                   ,     -'           ,- p
                                                                                                                                                                                                                                                                                                                                                                 t"- .-t h) AD
                                                                                                                                                                                                                                                                                                                                                       CD CD 0-t-) 0 pp CM
                                                                                                                                                                                                                                                                                                                                                       cn ,--r




                      Statusand Timeline for Completion:
                                                                                                                                                                                                                        Statusand Timeline forCompletion:
                                                                                                                                                                                                                                                                                                                                                   CD
                                                                                                                                                                                                                                                                                                                                                   CD ,_.. P ■   -t f=1- ,-    '-'-'
                                                                                                                                                                                                                                                                                                                                                                              8


                                                                                                                                                                                                                                                                                                                                                   k_   ■
                                                                                                                                                                                                                                                                                                                                                   • =ipp '-Z7      R
                                                                                                                                                                                                                                                                                                                                                               (;) f-f-,<CD
                                                                                                                                                                                                                                                                                                                                                   CD 0 44
                                                                                                                                                                                                                                                                                                                                                   P c )            0
                                                                                                                                                                                                                                                                                                                                                                    0 CD t< `Ri •
                                                                                                                                                                                                                                                                                                                                                        ■
                                                                                                                                                                                                                                                                                                                                                        -t ,--+- . =
                                                                                                                                                                                                                                                                                                                                                                              a >
                                                                                                                                                                                                                                                                                                                                                       o .,
                                                                                                                                                                                                                                                                                                                                                       '73               ta,
                                                                                                                                                                                                                                                                                                                                                                         po 0
                                                                                                                                                                                                                                                                                                                                                        O
                                                                                                                                                                                                                                                                                                                                                        • =•• :-    0 0              'cI
                                                                                                                                                                                                                                                                                                                                                                                      tt_
                                                                                                                                                                                                                                                                                                                                                                         fa, 0 0
                                                                                                                                                                                                                                                                                                                                                                                      A)
                                                                                                                                                                                                                                                                                                                                                        ■
                                                                                                                                                                                                                                                            Proceduresand announcement for internalstaff transfers.
                                                                                                                                                                                                                                                                                                                                                         -■
                                                                                                                                                                                                                                                                                                                                                        f-4 •       0
                                                                                                                                                                                                                                                                                                                                                               0 0 /a., CD
                                                                                                                                                                                                                                                                                                                                                        FD •                          o-t.)
                                                                                                                                                                                                                                                                                                                                                        v)             ,.7_, 0 0
                                                                                                                                                                                                                                                                                                                                                        ,-- • 0- '73 .-"--; CA  f-4- t--t
                                                                                                                                                                                                                                                                                                                                                        O           ■
                                                                                                                                                                                                                                                                                                                                                                    -t        ,-+,
                                                                                                                                                                                                                                                                                                                                                               AD 0 0    ■
                                                                                                                                                                                                                                                                                                                                                        Sa.               - . •■°
                                                                                                                                                                                                                                                                                                                                                                                -t CD
                                                                                                                                                                                                                                                                                                                                                               0 SZL al. 0 a
                                                                                                                                                                                                                                                                                                                                                        0                '6 n
                                                                                                                                                                                                                                                                                                                                                        CD o
                                                                                                                                                                                                                                                                                                                                                                    0
                                                                                                                                                                                                                                                                                                                                                        0
                                                                                                                                                                                                                                                                                                                                                        ■-+,  ra,
                                                                                                                                                                                                                                                                                                                                                       CD CD
                                                                                                                                                                                                                                                                                                                                                       AD
                                                                                                                                                                                                                                                                                                                                                       C) po
                                                                                                                                                                        AD                                                                                                                                                                                       0
                                                                                                                                                                                                                                                                                                                                                            c2
                                                                                                                                                                        N.                                                                                                                                                                             CD        ■
                                                                                                                                                                                                                                                                                                                                                                 -• •




                                                           AmemorandumtotheOIG detailingtheplantoaddressseniorstaff vacanciesatposts.
                                                                                                                                                                                                                                                                                                                                                       CD
             •                                                                                                                                            •
                                                                                                                                                      i...
                                                                                                                                                      .          .
                                                                                                                                                                 (.,
                                                                                                                                                      .
                                                                                                                                                      a ,,,
                                                                                                                                                             CI
                                                              -v)
                                                                                                                                                   Oc—_,0-0 ,..),.,
                                                                                                                                                           .....
                                                                                                                                                   a4 g .. ....
                                                               O
                                                                                                                                                                                '3
                                                                                                                                                                K _2
                                                                                                                                                                   3-
                                                               a)                                                                                                   .
                                                                                                                                                    O
                                                                                                                                                    cs
                                                                                                                                                         .e
                                                                                                                                                          Tzi • &71             U
                                                                                                                                                    E  a) cn
                                                                                                                                                                  ct
                                                                                                                                                   O -A5i c7,..8 __i            C)
                                                                                                                                                                                ttO
                                                                                                                                                          0 O.                  cr3
                                                                                                                                                   q-I
                                                                                                                                                          (1) mi
                                                               O
                                                                                                                                                   o
                                                                                                                                                   cu ,...      a) cz:          E
                                                              a.)                                                                                  t4c-)
                                                                                                                                                      e ..ca) u ..0
                                                                                                                                                     -.         a)
            (4-4
            ee., ;.., -E
             ....) a) a..)                                                                                                                         0 ac./3         .....        0
            --Eb a' •4
                     c)
                                                              I                                                                                    , . ,..,
                                                                                                                                                          ;-( (1) .0

                                                                                                                                                                                7:3
            -,.. o 0                                                                                                                               ,4
                                                                                                                                                         c4-(
            •R >          ()
                          c,
                                                                                                                                                   O
                                                                                                                                                            ,..
                                                                                                                                                          ta0
c.)
            ....
             ._ 0
             ct =_
                                                                                                                                                         .E Q                   00
             0          5i                                    C.)
            -0
                       ....
                    „, („,
                                                                                                                                                                                0
cA           ;...
             •            -
             U 0 ct
Cli         .,--i 0 (-)
                     c)




                                                                        Status andTimeline for Completion:




                                                                                                                                                                                                                        Status and Timeline for Completion:
Ai                                                            O
             vi ""    0                                       bA
             •  C-
                 7'3 cd
=
4
            . ---■
              0 ct
            tt. " o 0                                          a)
                                                                                                                                                                                °
                                                                                                                                                                                cl.)
-.e!C        i-, - --u.,' c,,,
             ca,z a)
                            -,                                ,-0
                                                                                                                                                                                   '




                                 Documents to be Submitted:




                                                                                                                                                                                       Documents to be Submitted:
v)          ,_, o ci.,
4           <...) o                                           •O    ci)
                                                               - • Ed                                                                                                           C)
                  o (1)
            Id i. •,;:ii                                       c.)
                                                                                                                                                                                zO
O.4




                                                                                                             • March31, 2014
             0 o                                               • P-■
Po




                                                                                                                               Recommendation 9:
             .- & 1-                                          "ci
            (.1-4c.)
                  o 'c.)                                            •-•
U            O       ;..i
4             ci) • --, -I--
                          0
              0    •      C.)
            0 ''
            t4-741                                                  O
            (4-1     a) •
                                                              rz4
•       E
                                                               •                                                                                                           v    C)                                  •




                                                                                                                                                                           UO
            -t'd- Cci I
W                         O
Cli         E-■       c.)
                                                                                                                                                                    ,_,,
                                                                                                                                                                     P "d         5 "(1
                                                                                                                                                                                      0     CA '5 • CM? ,.   -,--      x (-)    .7:$ H
                                                                                                                                                                     ,..0 CD r, • p 0 rZL,•       ,,
                                                                                                                                                                                                  _, -■   . cD ,--,.s•   0   CD 0 •-•
                                                                                                                                                                    '9, " 5-•  '
                                                                                                                                                                                                       -'
                                                                                                                                                                                     0 '-' h:S p al., cm• CD             =
                                                                                                                                                                                                                             CD  up P
                                                                                                                                                                     ‘-'•0 PC1'4.-"q                         ....)0      n               •
                                                                                                                                                                                                      :zipri-,    rr         CD '•-t .-■
                                                                                                                                                                                                                                       -
                                                                                                                                                                          "d
                                                                                                                                                                          4 , , Grg ,__,. 0 t<„). ,-,
                                                                                                                                                                              L-ti                0 0                    =   al, P
                                                          ,-- 6/)         S.     5' CD S                  2 P'                                     ,... • _, _                o            1
                                                                                                                                                                                           0                      ,...., -• a
                                                          .$2,#) '0 cn \--'      ,
                                                                                 $ ?,), 4 —
                                                                                                                                                                                                                  0
                                                                                                     uP fa,   ram.  '-•     CD ' c.„) cp 0 4- o 0' c° 0 '" <
                                                                                                                                    c/B   0                                                                      "CI (Itq
                                                                  CD    ,„'
                                                           a ,--t ,- • ,__,  .0   ■
                                                                                  --I., .— (Z)                          ,r+              ,-- ,,,          CD    ,      v)
                                                                                                                                                                          OF o °              -
                                                                                 CCD    0
                                                                                                      -* .. CD0"QP                                        ••                  '-F) CI. P.                                   r-ti
                                                          Crg
                                                            ■
                                                            -, • 0-< • 0 <       up          c./P   C7* CI' cD CD                                                                   0 CD
                 ,---.           ,---. ,..--. ,...--. CD v)                      ,-r a r •                                                                                                 ra•                    ,__.
                                                                                                                                                                                                                  < ,-ti 0r)
                    6.. .10     (44 INJ 1-■                                      CD cD CM            v) P 0 ,..,   ,._.
                                                                                                                     s   ,, _ _p•_ ,4 ,e-„,-e 0
                                                                                                                                              , _ S a • , 0 P CD VI) CD       „ ,--                                ra. e)
                 ,......., ,71 ,......., ,...., ,......., up ►0   -e p ,,;_,-
                                                                            .. ' .-t               a a r • CD                       ..- '-' CA                            -t v) CD
                                                                                                                                                                     • "< •
                                                                                                                                                                          <                                       a r: C  -1.,
                   orq ■     -t /.... \                    0 SID al, ,           Po     al'                               .-t 0 .-• • 0 0 r- '-' • "'up• 'L • 0 cc)                 rt- P                          P (/) ,-"'
                   al-, AD •                                                     CT' <                    P' < cip          A
                                                                                                                           CCD                                                      '•-• •                         CI- o '-L4
                   CD "" 0                          CD            al. ,o p■ -t . .1 cD fa,         1..i •     (1)                     't CI' 0            CD C14 0 cn     p        C) CL,                          CD
                                                                                                                                                                                                                                   :01 uogepuauutioaall



                            (4            .C/                                    0                                            D `< CD                    '71              - CD             AD                               =
                                                                                                                                                                                                                                                          tI OZ`I£1.13-relAl




                                                                                                   .Ctt• •-- Ili                                                                                                 ...0
                                   <- 8 o           t-                                                              rt-
                                                                                                                            El), rF CI' :::',1 5' a 5- vs. `2
                                                                                                                                  .  "                                                                                 5,-- p
                                                                                                                          -•-•                CD P '7i $,?+) v) .-•       p 4 c-,'_,                               rr CD
                 `-< `-< ° a CD                                                  P          'ti   ,cs CD 7-t. 1                                                                                                   ct) "7.," pzj
                   P ce a cD CD                                   SID < tiq      GC?    rp CD                           ac? ..• ..„-.ri-.--,- ,,„1 fa, cp,--t c., CD C
                                                                                                                                                                 r_-_: •           C• ;' CA
                            0                                    Crq                                                                     -                                    AD (1)                                           ,-) .-t
                  fa-        ''EI'
                               '      CD                 •    g                        '8.      a (4             •
                                                                                                                                                                            CD •'-'- CD P '-- ,T     ,ms Cr:
                                                                                                                                                                                                          :    Cig '-A 71      o
                                                                                                                                                                                                                               cp 0 v)
                               ,....,                                                                                                                                   c„ 5 P v)              '71 e" < CD CD (I)              al., CD 0
   vp - 0 0 ,                         P      CD     r,  •  t<                          CD • .-r•- • p a,
                                                                                                             n                                                      (17                  : .                                   Cr ,-, • Et
        •                             sa-     ':e,.           ,•,., PD                 cn    6               ,-,-,                                                      0 $] X
                                                                                                                                                                                                6., CI- '.=-.'      P <        P 0
   ,_,,
   c/D          CD CD CD              ,-C2-.                                                                                                                        .`4                  „
                                                                                                                                                                                         i °    < • 9" . ,...., g v) v) :    • 0
          al., CD CD ,ci              -p-. sa:° 0                                a     E5 v)                                                                                                                    rf,     0       7-, 0 CD
   CD -                                                       al-     Y           P
                                                                                 al.                         "t                                                                                                          ■
                                                                                                                                                                                                                         - t
                                      O' 'O'         0                                 C-D -                                                                            0 ,14         F< a                cD                              0--
                      CD                       PD ,<                             0           a                                                                                       '-< p..,• crQ P CD 0 CD '-<                    Sam, P
                                                              0      0                 cn   Ph) p CD
                                                                     '-' v)
                0-r) rt               P .-.<    ■
                                                -, (7)p
                                                                                                                                                                     0 2 = ,-'m
                                                                                                                                                                             4  ■
                                                                                                                                                                                = t   0  0                 Dt  'd       '..0
                                                              <     CM                       CD              Om,                                                            p 0 CD 0              • ,-<             ,-. CA D              1DD
   F            c.-) o                                                    " '''        CD ¢, '5 • CD                                                                 CD                                             v) '-t          rr CICi
  `-<                                  NI Cr -t               CDPD              '73•                                                                                                                0 (:),                          I-. • 0
   CD                                                                                                 c,
   CD           P     P                              .-F)                         fa.  5% ° =-: a                                    CD r, • r ,- 0                                .0                          Cjq
   vp
                                           ••
                                                     P                ,,Cn      CD     CD             <            c..<     r•••• •                                                                                     CD




                                                                                                                    Per Title 5, Codeof Federal Regulations(CFR):
                                                                                                             0                        " rv, CL 0 CD                                  0 5 , E•
■
I               0 0                                           CD P CD             <          5, am, "C1             ,-r-` .--,-• CD         '    ''' c)      --,,,    ,-■-           ■—                         CD     rt-
   .._,         CD CD                 CI4     ,__,  CD         rt-               .-          CD                                                               a      cp        .1   F . ;    a-
                                                                                                                                                                                             p                   ■
   5:           P P                    0 CD                     1                 0                                 .1
                                                                                                                     c'D
                                                                                                                                    0
                                                                                                                                    CD                phD
                                                                                                                                                              0 CA ',S - '                                      0-1-
                                                                                                                                                                                                                 -t ) '71
               71                              9
                                               c/ .b  -'               7      '•=i           P P 0                  CD       0              'CI             'CI
                                                                                                                                                                                                                0-e    ,o-t
                                                               FL: 7.t,                     C14 cn                                                                           ,--" 6 cD       C9 (-9 2
                ■-t                                           CD                                             0
                                                                                                                   k<      a      ,-    •  .-t                                                                         ,_,.
    P           ,- • ,-e              a                                                      0                                                                                                                          CD
   o            cn     0                            `<     '73       a      ,--+-                            ,-F,    SID
                                                                                                                    .t   CD`<                 ,-•
                                                                                                                                              vp      •°0
                                                                                                                                                      "t                     "
                                                                                                                                                                             0     al.,                  "CS            CD
   0            P fa,                  v)
                                               o     0                                       '8     •  °    :=:                                      'zi              ,7). ,... '-F P7i 2 g                     0    c,,
   CD                                                         .t ■      ,-,t) • "            up._                                                                                                               0
  '71           c7)-                   CD 0 cn                                                                ra,   •c4 Ph) 5-SIDCD         `.-' q SID 2                                     4 cfq ,)*
                ... • 0                0<E•                ` m c
                                                               e S'   v)          0          v)      •-t-      ,"                                                                         -                      1) Cr  '-?"D- •
    FDL               .'-'•
                       7. ,•          1-h CD                                                             '-'
    Cr          P ---• .               r t_< ,_, ,                                           C') p                                                                                                               -t
                                                                                                                           CD                                                c,, kp-r ■             po
                                                                                                                                                                                              •-, ,-zi
                                                               q.                            CD C1C? pp                                                       P                                                        ..‘ ;•,,•
                                                                                                                                                     PD '73 '71 r         tl • ;7_,'•                           CA •
  "CI           0                      ■-t ■    ••,         „CD. r-"t          . (1)         vP         0 'c-/)-'                                                                             0 ,-P-CD
                                                                                                                                                                                                          .--•
                                       0 "      rD ,7:                  CD        r •        ■- • •                        C9 CD      - ft: C9               7    i   C
                                                                                                                                                                      0
                                                                                                                                                                      ,„ ..,
                                                                                                                                                                         )    "
                                                                                                                                                                                                                 PD , mot
                                                                                                                                                      - ,.,                  :   f D      D   Dk          :•           ".
    ■           P                                                                                   `-<      .-) •                            AD        "   ::- ` ' •        '-
                                                                                                                                                                              J"    a                    cfq
                                                                                                                                                      •—■ • ci)
    -01-,
                                       .-i .         0                  CT• Gig CD                                                                    ci)  $,,D              , . ... . Cr           0
                                                                                                                                                                                                               P ,-, •
                                        P '<             •           "                      'CI "• • CA                                       0 cn                           c7) p
                CD                              CD                                           P CCD 'CI
                                                                                                                                                                                                    " cp        CI-
    P                                  CD p •-•-                        Li) $,_1_,)                                       hzi (7)                             '&-D- PD 0 '—'0 N                                 ,4_, Crg p
                                       P vp    "                                             v,               0
   0                .                  0 ,. CD                         n 2,                  . _• ,                        C        't     ,.." --'. 9c/ CD r9 ---           r'OA                         ,—,   CD
    a           5,  -                                                                                 r:+, i ..' •         ,__..                      •                                       8  -  (....)
                                                                                                                                                                                                    c) P    .0
                                       c..) ,-<                                      .       r4 CD rA                                ,:„.. Cl, cD                                                                'T CL
                AD                                                                          (IQ cn 0                                 (../J
                                                                                                                                                                      ,- (1)  PD ;7i          "    s'o p         < Cfq
                                                                                                                               .t                     fAD  0     Pi)       0  Ci)        <I.
                                                                                                                                                                                              0 CD        an)
               Cr:D                    EP    'm      5                  4,,      5- '                                                                                                                           (1) .
                CD                    - ,-t P                                                         v) -                  Cns. Up (1) CCD k< ,,, C1) Irl .-',..,•                                        a
                                       0 °                                                                                                    .t              CD r e".■                 ''' im-,-, (/)               CL
                                                                                                                                     H.) CD                   a aq k" ""D CD i)                      r. n       ,0 PD
                                                                                                                                    .tti
                                                                                                                                     0 -0       p    (")              q,     c  "Ap•-.0
                                       0 '"'' • (-D                     -,                   ,, a                                                                                                                 D CD
                                                P.- "                 „.■                    up •-F, U4                              .F1> . 8 . t                     2 77, n        cp             g__F ,      C-4-
                                                                                                                                                                                                                 F.. •=t-
                                       (i) (1'4       <
                                                CD E";') •              P                    0 fl.) C)                                                                                                           r-
                                                                                                      ..-                                                             ,-4,         ,.z P .'74-• CA                       PD
                                                0 .t                                                          p
                                                                                                                                                                        4-1
                                                                                                                                                                         -
                                                                                                                                                                        C4 I
                                                                                                                                                                         CZ: a)                      a)         bl)
                                                                                                                                                                                                     4-,
                                                                                                                                                                                                     4-■ 0 a)
                                                                                                                                                                                                                                                                                                                                                                                                                   0    0
                                                                                                                                                                         cip ,4                            C.) .&
                                                                                                                                                                                                                                                                                                                                                                                                                 • •-4 • ,.,
                                                                                                                                                                                                                                                                                                                                                                                                                                          (..     Ct
 O                                                                                                                                                                                                                                                                                                                                                                                                                      ;.
                                                                                                                                                                        ...
                                                                                                                                                                                                     . r.
                                                                                                                                                                                                      3
                                                                                                                                                                                                                                                                                                                                                                                                                  C)
                                                                                                                                                                                                                                                                                                                                                                                                                  C4    fa,
                                                                                                                                                                                                                                                                                                                                                                                                                        I)                0
                                                                                                                                                                                                                                                                                                                                                                                                                                           v,- 8
                                                                                                                                                                                                                                                                                                                                                                                                                                                  V)
 CD X)
                                                                                                                                                                        .0 1)..                      .,. , ,,,, 0 -,i
                                                                                                                                                                                                                  -0                                                                                                                                                                                              cn
                                                                                                                                                                                                                                                                                                                                                                                                                  0                       .v) • a)
 ct                                                                                                                                                                     ••.•                          0 0 ci-i cz$                                                                                                                                                                                                ra, cct
 C/)
                                                                                                                                                                         0 •-z
                                                                                                                                                                         ,...,  $-'
                                                                                                                                                                               •-                     a) 7; a, .•
                                                                                                                                                                                                                                                                                                                                                                                                                                           ,..4
                                                                                                                                                                                                                                                                                                                                                                                                                                            c:L ..•
                                                                                                                                                                                                                                                                                                                                                                                                                                           CI C4
                                                                                                                                                                         •••,  ,7:3                  •,-,   ti.) -e-J -'


                                                                                                                                                                                                                                                           Performance appraisal guidance will be further developed and submitted.
                                                                                                                                                                                                                 C.) a)                                                                                                                                                                                           :-■ ;-.4
                                                                                                                                                                         0                                  C)
                                                                                                                                                                                                                                                                                                                                                                                                                  0 CD     CU ti--I
       •v-4 cr)                                                                                                                                                                                                                                                                                                                                                                                                   Cf)      C.)
            77)
                                                                                                                                                                        •.,..0,._,.                           0 ,;                                                                                                                                                                                                a) a)
                                                                                                                                                                                                                                                                                                                                                                                                                        "  0
                                                                                                                                                                                                      a
                                                                                                                                                                                                            0 „.                                                                                                                                                                                                  r, ,4                    czt 0
                                                                                                                                                                                                                                                                                                                                                                                                                 .(o4o-I
 o
•—                8
•1.-4 (/)
 C/) • ••••
                                                                                                                                                                         s- rn
                                                                                                                                                                         (1) • 7,
                                                                                                                                                                         >
                                                                                                                                                                                0
                                                                                                                                                                                                     0 t 0 0
                                                                                                                                                                                                     C.) a)
                                                                                                                                                                                                     ;.. a4
                                                                                                                                                                                                            0
                                                                                                                                                                                                            Ct

                                                                                                                                                                                                                                                                                                                                                                                                                 +----•
                                                                                                                                                                                                                                                                                                                                                                                                                                           c2E t.
                                                                                                                                                                         a) c.)                                                                                                                                                                                                                                    c.)       t E
                                                                                                                                                                                                                                                                                                                                                                                                                   0 0       fa, 0
              .71
                ,                                                                                                                                                       • •—■
                                                                                                                                                                            .,_,                      cf) ct
                                                                                                                                                                                                                 •4
                                                                                                                                                                                                                      0                                                                                                                                                                                           ;.-■       Cal) c)
                                                                                                                                                                                                                                                                                                                                                                                                                   fa■   a)  0 a) _!
              •                                                                                                                                                                                                                                                                                                                                                                                                    ›, -4-S  • 1.
                                                                                                                                                                                                                                                                                                                                                                                                                            7:3   0  -ai
                                                                                                                                                                                                                                                                                                                                                                                                                 . --- t-i-■ ;.-, • .. 0
 C.) (1)
     C-') •                                                                                                                                                                                                                                                                                                                                                                                                              0          •
                                                                                                                                                                             t  CI) $-1 0 AFizi                                                                                                                                                                                                                                            tO 0
        (LI ,4
             C1)                                                                                                                                                         0 .—■
                                                                                                                                                                         czt a)
                                                                                                                                                                                J.. -ZS (.71 -4
                                                                                                                                                                                                     '5 -74 -ci
                                                                                                                                                                                                                                                                                                                                                                                                                  ct                       cu ct, 1.)
                                                                                                                                                                                                                                                                                                                                                                                                                                           ;..
 C.)                                                                                                                                                                                                                                                                                                                                                                                                              = cc$
                                                                                                                                                                        1.) 0.)                       0- -ri to 2
                                                                                                                                                                                                      c..)                                                                                                                                                                                                           "d        -1t1 (I)
                                                                                                                                                                                                                                                                                                                                                                                                                                     6    'd
                                                                                                                                                                        0  (..)                                                                                                                                                                                                                                       C)    Q) cn ")
C.) t                                                                                                                                                                   g
                                                                                                                                                                        czs gct                       ,,, czi -0 c,                                                                                                                                                                                               (-) Cr)  ..0 Q CZ:
(1.) bA (/)                                                                                                                                                                                                                                                                                                                                                                                                       C.)      ..- 18 i•-•
            ,                                                                                                                                                                                                    a)                                                                                                                                                                                               Ct
                                                                                                                                                                                                      (1) c,3 to 2,
                                                                                                                                                                                                                                                                                                                                                                                                                      ••--■ 0 $.
C>       c.)
                                                                                                                                                                         bo ,..2                     z+,1
                                                                                                                                                                                                                                                                                                                                                                                                                  ct    .--■
                                                                                                                                                                                                                                                                                                                                                                                                                        to 0 ;..,
 C/)      1)
        E 6                                                                                                                                                                 (t4                                                                                                                                                                                                                                   Sa■.R      c)
                                                                                                                                                                         O
                                                                                                                                                                         0 ci,                         0 Ell a c)
                                                                                                                                                                           .4                        -0 0 .' ,.)                                                                                                                                                                                                       •5                      Q a)
        0 a.)                                                                                                                                                                                          $••1 c.)                                                                                                                                                                                                                           •g
                                                                                                                                                                                                                                                                                                                                                                                                                                           -.
                                                     Training slides and class schedule




                                                                                                                                                                             Q                         a) - ,--, ei,,,1 •■
                                                                                                                                                                                                                         (-)•.I                                                                                                                                                                                   > -ti
                                                                                                                                                                         Ci) al                                                                                                                                                                                                                                                            F.1.■
                                                                                                                                                                                                                                                                                                                                                                                                                                           A-, 7' d -4  5
                                                                                                                                                                                                                                                                                                                                                                                                                                                    t.i.-■




                                                                                                                                                                                                                                                                                                                                     Status and Timeline for Completion :
                                                                                          Status andTimeline for Completion:



                                                                                                                                                                        ".0    (1)
                                                                                                                                                                                                     14
                                                                                                                                                                                                                                                                                                                                                                                                                 773
'77) ° 4-1                                                                                                                                                               C/) -4-•                           ›.' '-ti
                                                                                                                                                                                                                 v•-4 ;••4
                                                                                                                                                                                                                       °
                                                                                                                                                                                                                                                                                                                                                                                                                  v)                      -cs 2 0
          C/)                                                                                                                                                                 Ct                     C4-I                                                                                                                                                                                                                                          bc-ci
••-■CL) +-+                                                                                                                                                              0 •4                               Q) &., 0                                                                                                                                                                                              O                         czt i)
                                                                                                                                                                                                                                                                                                                                                                                                                 -,-- -ci
                                                                                                                                                                                                     T-1
     t:41                                                                                                                                                               • r. ',..                      1 -4-
                                                                                                                                                                                                     ••■     Cli C.)
                                                                                                                                                                                                                                                                                                                                                                                                                                            a)        cl)
                                                                                                                                                                                                                                                                                                                                                                                                                  c,: ct
                                                                                                                                                                        +
                                                                                                                                                                        Ca'
                                                                                                                                                                                                     •R -icn
                                                                                                                                                                                                          ,--) 0 ›,                                                                                                                                                                                               $•-,
                                                                                                                                                                                                                                                                                                                                                                                                                  a)                        0 CL) a.) ,4
                        Documents to be Submitted:




                                                                                                                                                                                                                              Documents to be Submitted:
        E                                                                                                                                                                                                                                                                                                                                                                                                         rai -7)                   ct -4 -4--)
                                                                                                                                                                                                      a) 0                                                                                                                                                                                                       ,..., a)                 4-
 to               a)                                                                                                                                                    0 >                                                                                                                                                                                                                                      C...) -4


                                                                                                                               December 31, 2013
                                                                                                                                                                                                                                                                                                                                                                                                                       c.)                . E 4-E C)
                  czt                                                                                                                                                   -c-',c3 C2                    E 0 .—
                                                                                                                                                                                                      a) -4           Cr                                                                                                                                                                                         -E'ci                      tat) • R
                                                                                                                                                                        ..0 .                                    +a' ct                                                                                                                                                                                          ..0 •-cl




                                                                                                                                                                                                                                                                                                                                                                            March31, 2014

                                                                                                                                                                                                                                                                                                                                                                                            Recommendation 12:
                                                                                                                                                   Recommendation 11:
"El                                                                                                                                                                                                   tn
                                                                                                                                                                                                      czt      0 0.)
 ;—■
   •
     >
                                                                                                                                                                        (.. • (11
                                                                                                                                                                               ,.                     Ct • ='
                                                                                                                                                                                                               C) ."Ci
                                                                                                                                                                                                      0 C/), ,—.    ,--1
                                                                                                                                                                                                                                                                                                                                                                                                                 0 E , -
                                                                                                                                                                                                                                                                                                                                                                                                                 C.D c") e 1
                                                                                                                                                                                                                                                                                                                                                                                                                               "          z 'Cl   cn -8
                                                                                                                                                                                                                                                                                                                                                                                                                                              cc...1 9)
 (1.) >                                                                                                                                                                       czt■
                                                                                                                                                                        4-4 s--           .474-4 0
                                                                                                                                                                                                 >                                                                                                                                                                                                               C4-4 Q) '1-4
                                                                                                                                                                                                                                                                                                                                                                                                                           •-.'l
-ci     -4a4                                                                                                                                                                        E ;c2■                                                                                                                                                                                                                        o a 0                    a)
     a, a)                                                                                                                                                                a) $:). 0 fa■          Cl.■                                                                                                                                                                                                                c.) "                .•-4-• P, ,..• •-•■
 0 cn •n'                                                                                                                                                                 c.)-■
                                                                                                                                                                        t414  ct  (... cd           cA                                                                                                                                                                                                            c)>,
                                                                                                                                                                                                                                                                                                                                                                                                                  U>
                                                                                                                                                                                                                                                                                                                                                                                                                   ,.,.,.
                                                                                                                                                                                                                                                                                                                                                                                                                 t4=it 1..y ,o                    cd •,--
                                                                                                                                                                                                                                                                                                                                                                                                                                                       •-■
ra-i 0 0 cn                                                                                                                                                                   a)                                      0
                                                                                                                                                                        (4 0                         0 8              cd ct                                                                                                                                                                                       4-1 (ij
         0                                                                                                                                                              0 0t .__1                    .-,3 g              al                                                                                                                                                                                      0 F        7:i
                                                                                                                                                                                                                                                                                                                                                                                                                       J. CL)
                                                                                                                                                                                                                                                                                                                                                                                                                                                  °
     0 C.)                                                                                                                                                                      c
                                                                                                                                                                                                       g ct                                                                                                                                                                                                                               .2
                                                                                                                                                                                                                                                                                                                                                                                                                                           +-•-F)> ,„
                                                                                                                                                                         4]
                                                                                                                                                                                E...cztcd.   =i..;
                                                                                                                                                                                             u
                                                                                                                                                                                                                                                                                                                                                                                                                  a) a, .!_-..     i•:,
                                                                                                                                                                                                                                                                                                                                                                                                                                   =      • ,-4     cd
                                                          •                                                                      •                                                                          o "411 .P. a"




                                                                                                                                                                                                                                                                                                                                                                            •
                                                                                                                                                                                                                                                                    •
                                                                                                                                                                        --0
                                                                                                                                                  -                       • 0
                                                                                                                                                  • ,




                                                                                                                                               a co




                                                                                                                                                                                                                                                                                       •




                                                                     •
                                                                                                                                               cp c4           CD ,                               o '-'
                                                                                                                                                                                                     P ,-,-                                                                                                                                              •
                                                                                                                                                          Cirq CD sa: 0-i                     2     cm?   --.
                                                                                                                                               C P         0   w  72'. `<                     n      CD 0
                                                                                                                                               I-1      =                                                                                                                                                                                         AD 0
                                                                                                                                                  fa&   ■
                                                                                                                                                        —. ct, ,_, . '-`                                                                                                                                                                          bC3

                                                                                                                                                     1:1 E.• 5-- 6.- 8                   '-+                                                                                                                                                            r••••
                                                                                                                                                      0 ,-r-                             0-
                                                                                                                                                                                          - '•
                                                                                                                                                  CD <                P     t-
                                                                                                                                                                             .. _
                                                                                                                                                                                . 07
                                                                                                                                                      ..., . p        cn     v    cn cip
                                                                                                                                                               •      v) .-t             0     rn
                                                                                                                                                                      '" • cn     CD cn 1--t
                                                                                                                                                      ,., 0 0 cA                  cn CD e■                                                                                                                                                              CL.
                                                                                                                                                      n      E  lag                      ,-■ )                                                                                                                                                          CD
                                                                                                                                                           .
                                                                                                                                                  CD ...177.
                                                                                                                                                          , •-, 1-■   n
                                                                                                                                                                    • '-'    0
                                                                                                                                                                      '"" • .1    P CIC?




                                                                                                                                                                                                                      : f I uogupuatutuoaaN
                                                                                                                                                  CA l'a
                                                                                                                                                  CD  ,.., ;-'. 0 rig




HOZ 'I E1.13- ems •
                                                                                                                                                  Cn 0-1 • CD
                                                                                                                                                  P.) 1-.) ,--1- $1, ,... CD                       a. ...:," cr                                                                        t I OZ `I E113-reIN
                                                                                                                                                                      <                                   L'' P                                                                                                                                         O
                                                                                                                                                  .$ `-<
                                                                                                                                                 ,.<  ,--, • ,, ,__, ,-, • P4                               '-
                                                                                                                                                             ' ' ::1 5- ,4                            a 0                                                                                                                                               sl)
                                                                                                                                                  ,-* trg > ...• 0                                CD CD '''CS
                                                                                                                                                                                                                                                                                                                                                                :palltuqns aq of sluatunaou




                                                                                                                                                                                                         cr)




                                                                                                                   :pallmqns aq of swatunaou
                                                                                                                                                      crq 0 'at, 0 °                                       .1
                                                                                                                                                  p ..• 5• ,_,_            —                      CD la, ,--, •                                                                                                                                         0
                                                                                                                                                               crq 0 'Ct CD                       an                                                                                                                                                    0
                                                                                                                                                                                0                  ■
                                                                                                                                                                                                   - • 0-i
                                                                                                                                                               P-D,....         v) , c)            ■
                                                                                                                                                                                                   -t■ 0 di)
                                                                                                                                                  ° 0
                                                                                                                                                 .-c;    -
                                                                                                                                                         M
                                                                                                                                                      0 I--              CD <
                                                                                                                                                         ■.../C)
                                                                                                                                                               0 cE




                      Statusand Timeline for Completion:
                                                                                                                                                                  m? ,-,
                                                                                                                                                                     0
                                                                                                                                                                                                                                                                                                             Statusand Timeline for Completion:




                                                                                                                                                                         fa., ,-, . ••-• •                                                                                                                                                              CT'
                                                                                                                                                   • ,- '
                                                                                                                                                  P 0 0 CD                           ,c4).,       CD CD 0                                                                                                                                               ■
                                                                                                                                                                                                                                                                                                                                                        -• •
                                                                                                                                                  a t.-'.-' 0 p                             0
                                                                                                                                                 0-q 0 0                      g cp 0
                                                                                                                                                                       5:-    ,--. • —
                                                                                                                                                                                     -05, .-e
                                                                                                                                                              0 (1'                 .73fa.                                                                                                                                                              pj
                                                                                                                                                                                                                                              SNOLLVNIIIAIIITL1101,3allffl AHIN11103




                                                                                                                                                  E.      P 0 ..., •
                                                                                                                                                  Cl-, CD                     $1'.1 0 E •                                                                                                                                                               0
                                                                                                                                                  P CM fa.  • ■
                                                                                                                                                              "-• -1• '-'
                                                                                                                                                                    oi-.is) •                                                                                                                                                                           0
                                                                                                                                                                                                                                                                                                                                                        CD
                                                                                                                                                                   ),. 0
                                                                                                                                                        0 r-t- w $,I                                    8- '-0•
                                                                                                                                                  CD                      CD
                                                                                                                                                        P               0     "
                                                                                                                                                                        0-4.) 0                                                                                                                                                                         1-1.)
                                                                                                                                                  Szo   ■
                                                                                                                                                        —•0
                                                                                                                                                          ,, 0-t 5 ' '6                                                                                                                                                                                 0
                                                                                                                                                                                                                                                                                                                                                        ■-t
                                                                                                                                                        ...                                       o 5"
                                                                                                                                                 '1:3 , (1) CD rD CI,                                                                                                                                                                                   CD
                                                                                                                                                                                                        szo   5t,
                                                                                                                                                  O g b
                                                                                                                                                  o        + 61) 0                                ,-t
                                                                                                                                                  0 °.-t ':1 F                                    `< ,-, fa-. • CD
                                                                                                                                                                                                                ,-,
                                                                                                                                                  ra. cn      + P                                                                                                                                                                                       CD
                                                                                                                                                             .- • v)                                     '8 0-I-,
                                                                                                                                                  a                       SD 0 `7:/
                                                                                                                                                                                 -■
                                                                                                                                                                                  t
                                                                                                                                                                                                   r-t •




                                                           OGOwill developanaccountabilityprocess forsubmission.
                                                                                                                                                  ci)                                              CD Ej 0                                                                                                                                              v,
                                                                                                                                                  0.-r) ,-,               • CD °                   0 " 0
                                                                                                                                                  O '''                   • al-,                  FD v'0                                                                                                                                                cr

                                                                                                                                                  ,_,                     cl.
                                                                                                                                                  CD     -t
                                                                                                                                                                                p-   0            V'           ■
                                                                                                                                                                                                               -•J-.4,-,
                                                                                                                                                  ,-t    v                CD                                                                                                                                                                            .- •
                                                                                                                                                                          Po                             0 =
                                                                                                                                                  .- • p.P                0                              c
                                                                                                                                                                          CD                               p,)
                                                                                                                                                                                     P                  =t-                                                                                                                                             O
                                                                                                                                                  1,?-r "I''              r)         Cfq                V ,_,
                                                                                                                                                      " CD                0     0 0                            /,)                                                                                                                                      '73
                                                                                                                                                    •
                                                                                                                                                   0 .-tCD                cA ■
                                                                                                                                                                             -t 0     8
                                                                                                                                                                                                                                                                                                                                                        0

                                                                                                                                                   • 0  "                      nn C7d 0
                                                                                                                                                                                                              CD
                                                                                                                                                                                     "'

                                                                                                                                                        0                                                                                                                                                                                               CD
                                                                                                                                                  g-r- CD ■
                                                                                                                                                          -• • 0
                                                                                                                                                  ■
                                                                                                                                                  -t
                                                                                                                                                          cn   0
                         APPENDIX C: OIG COMMENTS
Management concurred with all 13 recommendations. In its response, management described
actions it is taking or intends to take to address the issues that prompted each of our
recommendations. OIG acknowledges the actions the agency is taking to enhance the hiring of
overseas staff positions, including: developing a more disciplined appraisal system, enhancing
coordination between HRM and OGO, and revising the overseas hiring procedures.

All 13 recommendations remain open pending confirmation that remediation actions have
occurred and supporting documentation listed in management’s response is received. We wish to
note that in closing recommendations, we are not certifying that the agency has taken these
actions, or that we have reviewed their effect. Certifying compliance and verifying effectiveness
are management’s responsibilities. However, when we feel it is warranted, we may conduct a
follow-up review to confirm that action has been taken and to evaluate the impact.




Final Audit Report: Peace Corps Overseas Staffing                                                38
      APPENDIX D: AUDIT COMPLETION AND OIG CONTACT

AUDIT COMPLETION                   Lead Auditor Rebecca Underhill, Auditor Renita Davis, and
                                   Expert Consultant Obie Shaw performed the Audit of the
                                   Peace Corps’ Overseas Staffing. Lisa Chesnel, Logan Davis
                                   and Kaitlyn Large provided assistance in compiling the audit
                                   report.




                                   Bradley Grubb
                                   Assistant Inspector General for Audit

OIG CONTACT                        If you wish to comment on the quality or usefulness of this
                                   report to help us strengthen our product, please email Assistant
                                   Inspector General for Audit Bradley Grubb, at
                                   bgrubb@peacecorps.gov, or call him at 202.692.2914.




Final Audit Report: Peace Corps Overseas Staffing                                                 39
 Help Promote the Integrity, Efficiency, and
      Effectiveness of the Peace Corps
  Anyone knowing of wasteful practices, abuse, mismanagement,
   fraud, or unlawful activity involving Peace Corps programs or
personnel should contact the Office of Inspector General. Reports or
             complaints can also be made anonymously.




                          Contact OIG

                         Reporting Hotline:
          U.S./International:      202.692.2915
          Toll-Free (U.S. only):   800.233.5874

          Email:                   OIG@peacecorps.gov
          Web Form:                peacecorps.gov/OIG/ContactOIG

          Mail:                    Peace Corps Office of Inspector General
                                   P.O. Box 57129
                                   Washington, D.C. 20037-7129



                     For General Information:
          Main Office:             202.692.2900
          Website:                 peacecorps.gov/OIG
            Twitter:               twitter.com/PCOIG
